<html>
<title> - PERSPECTIVES ON THE CRISIS IN LIBYA</title>
<body><pre>[Senate Hearing 112-58]
[From the U.S. Government Publishing Office]






                                                         S. Hrg. 112-58

                  PERSPECTIVES ON THE CRISIS IN LIBYA

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 6, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


       Available via the World Wide Web: http://www.fdsys.gpo.gov




                  U.S. GOVERNMENT PRINTING OFFICE
67-801 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Haass, Hon. Richard N., President, Council of Foreign Relations, 
  New York, NY...................................................     5
    Prepared statement...........................................     8
Kerry, Hon. John F., U.S Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Malinowski, Tom, Washington Director, Human Rights Watch, 
  Washington, DC.................................................    10
    Prepared statement...........................................    13
Vandewalle, Dirk J., Associate Professor of Government, Dartmouth 
  College, Hanover, NH...........................................    16
    Prepared statement...........................................    19

                                 (iii)

  

 
                  PERSPECTIVES ON THE CRISIS IN LIBYA

                              ----------                              


                        WEDNESDAY, APRIL 6, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Webb, Shaheen, Lugar, 
Corker, and Lee.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. Good morning. We convene today to further 
examine the evolving situation in Libya.
    It has now been nearly 3 weeks, since the international 
coalition began airstrikes against Libyan military targets in 
support of U.N. Security Council Resolution 1973. And I think 
it's--certainly, the more compelling components--maybe 
``compelling'' is the wrong word; each situation is 
compelling--but, I think that the broader dangers of the 
humanitarian catastrophe have been averted, even as some 
circumstances still continue. And, as we know, civilians are 
still dying. And the road forward really needs further 
definition.
    So, it's my pleasure to welcome, today, three very 
excellent witnesses to help us understand what's happening 
today and to think through how the conflict might be resolved.
    Richard Haass is a friend of the committee and longtime 
friend of mine, personally. His government service was marked 
by, I think, clear-eyed appraisals of difficult situations. 
And, as president of the Council on Foreign Relations, he's 
been out front, telling it like it is, which is what he ought 
to do. And we expect nothing less today.
    Tom Malinowski has served in a number of senior positions 
in the Clinton administration. I think he's best known as the 
Washington director for Human Rights Watch. And from that post, 
he has been a tireless advocate for human rights, and we look 
forward to his assessment here today.
    And our third witness, Dirk Vandewalle, is a professor at 
Dartmouth College who has spent much of his distinguished 
career focused on Libya. He brings a wealth of expertise. And 
we appreciate his presence and look forward to his insights.
    I said last week, and I reiterate, that I do believe we 
have strategic interests in the outcome in Libya. I've always 
suggested that we can layer or tier different stages of 
interest of the United States, from vital national security 
interests, to a legitimate national security interest, to a 
national security interest, to an interest. I mean, these 
interests are of varying degrees of urgency and strategic 
importance and value.
    But, there are clearly strategic interests, certainly in 
keeping the hopes of reformers across the Arab world alive, and 
in making sure that the Arab Awakening, which may well offer 
one of the most important strategic shifts since the fall of 
the Berlin Wall--depending on how it comes out, obviously--but, 
keeping that moving and countering the violent extremism of al-
Qaeda. Certainly, a peaceful turnover in a place like Egypt, as 
the result of an acquiescence by the military in the face of 
civilian protests, is far more preferable than IEDs, military 
engagement, and suicide bombers, and other violence that has 
been attached to many of the movements and transitions and 
confrontations of the rest of that part of the world.
    And also, I think there is an interest in demonstrating to 
the region's leaders that, when the global community makes up 
its mind regarding a particular shared value, as was expressed 
in the United Nations resolution, that there is a value for 
people understanding that peaceful endeavors are not going to 
be met by repression and large-scale violence, where, in fact, 
it is both reasonable as well as possible for the United States 
to make a difference. I think the President articulated those 
kinds of differences that exist, and we need to be sensitive to 
them.
    Obviously, these uprisings have spread with enormous 
velocity. And that is a testimony to the new interconnectivity 
of the world and the pent-up frustrations of people throughout 
the region, particularly these huge populations of young 
people, who have little opportunity for jobs or education or 
outlet, but who are all connected to what the rest of the world 
is doing and living.
    It's going to take time for us to fully appreciate this 
transformation. But, we can agree that this is setting a new 
direction for the Middle East, even as we have some 
uncertainties about some aspects of that direction. Moreover, 
the United States has important bedrock values that we must 
uphold. And we also have a role to play. It's a role that 
differs from country to country, depending on those interests, 
as they are defined, and also depending on our capabilities and 
on the possibilities.
    When it comes to Libya, the President faced a difficult 
balancing act. On the one hand, he had a responsibility to help 
prevent a humanitarian catastrophe; on the other hand, he 
certainly wanted to make sure that the United States did not 
suddenly start out on an adventure that brings us to a place of 
being bogged down in another ground war. I believe he struck 
the right balance. And America's military role, which was 
limited from the beginning, is diminishing even further now, as 
we speak.
    There is still a need for robust military protections for 
the civilian population in Libya, and NATO will take the lead 
on that. Even as we continue to assist the NATO mission, we 
will also apply other means to influence the outcome. We need 
to use stringent economic sanctions and aggressive diplomatic 
pressure to help convince Qadhafi to transition.
    There have been some encouraging signs. One of his most 
influential and longest serving advisors, Moussa Koussa, 
defected last week, opening the possibility of new insights 
into how to persuade Qadhafi, himself, to go. Defections are, 
needless to say, a critical indicator of people's beliefs about 
where things are moving and who might actually ultimately win. 
And I think that Moussa Koussa's defection was important.
    Yet, despite the best intentions, the opposition is, in 
fact, poorly trained, poorly armed, and poorly organized. They 
have not proven capable of holding on to gains deep in pro-
Qadhafi territory. Obviously, they need assistance of one kind 
or another, and it is appropriate that the international 
community is working through exactly what that will be.
    Libya's Transition National Council has put forward a 
commendable political program that imagines a more stable, more 
tolerant, and more democratic Libya. They will need outside 
support for that. And I hope we will have a couple of members 
of that council visit us here in Washington, perhaps as early 
as next week. I met with them in Cairo and have extended an 
invitation. And I'm confident that they would like to take us 
up on that at a convenient moment.
    So, however the situation in Libya ends, whether it's with 
regime collapse, total and complete, or a rebel military 
victory, or an extended stalemate, the process of putting Libya 
back together will be a complicated one. But, it is a task 
where the United States, the United Nations, and the Arab 
League all have roles to play.
    I might add that, while it is a country of vast size 
geographically--I think something like three times the size of 
Texas--it is a country of only 6 million people, about the 
population of my State of Massachusetts. So, I believe that, in 
the end, this will be both manageable and not exceedingly 
costly to the global community.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman. I thank 
you for holding this important hearing. And I join you in 
welcoming our distinguished witnesses.
    The Libyan civil war continues with little prospect that 
the opposition will be able to defeat the Qadhafi regime's 
forces in the near term, even with the backing of coalition 
airstrikes.
    The President and members of his team have stated that the 
removal of Qadhafi is a diplomatic goal of the United States, 
but not a military goal. The administration has not addressed 
specifically what its plans are for supporting the rebels or 
how the conflict might be concluded. The President has been 
silent on what our responsibilities may be for rebuilding a 
post-Qadhafi Libya. We are left with a major commitment of U.S. 
military and diplomatic resources to an open-ended conflict 
backing rebels whose identity is not fully illuminated. This 
lack of definition increases the likelihood of mission creep 
and alliance fracture.
    The President has not made the case that the Libya 
intervention is in the vital interests of the United States. 
Calculations of our vital interests must include the impact of 
any elective military operation on our $14 trillion national 
debt and on armed forces strained by long deployments in Iraq 
and Afghanistan.
    Beyond these resource considerations, the application of 
American power in Libya is misplaced given what is happening or 
may happen elsewhere in the Islamic world. When measured 
against other regional contingencies, Libya appears as a 
military conflict in which we have let events determine our 
involvement, instead of our vital interests. The sustained 
security problems presented by Iran, which is aggressively 
pursuing a nuclear weapons capability, and Pakistan, which 
already has one, are magnitudes greater than the problems posed 
by Libya. Clearly, with a combined 145,000 American troops in 
Iraq and Afghanistan and years of American effort invested in 
both, those countries have to be considered a far higher 
priority than Libya. Although Qadhafi could conceivably lash 
out with a terrorist attack, the Afghanistan-Pakistan border 
and Yemen, which is the epicenter of al-Qaeda in the Arabian 
Peninsula, pose the most intense threats of a significant 
terrorist attack in the near term.
    Politically, the outcome of changes in Egypt, which has a 
population 13 times greater than Libya's and is a cultural and 
military power within the Arab world, will have far more impact 
on the strategic calculations of other nations than Libya, with 
its tribal conflicts and idiosyncratic politics driven by 
Qadhafi and his sons.
    Meanwhile the Arab-Israeli peace process is going nowhere, 
with additional uncertainties in the region being created by 
the popular upheavals in Egypt, Syria, Jordan, and other 
nations. In this context, a rational strategic assessment would 
never devote sizable military, diplomatic, economic, and 
alliance resources to a civil war in Libya.
    The President has attempted to link United States 
humanitarian intervention in Libya to strategic interests in 
the broader Middle East, but this link is extremely tenuous. In 
his March 28 speech, the President stated that if Qadhafi 
succeeds in violently repressing his people, ``democratic 
impulses that are dawning across the region would be eclipsed 
by the darkest form of dictatorship, as repressive leaders 
concluded that violence is the best strategy to cling to 
power.''
    But leaders in the region, as well as ordinary citizens, 
are making calculated decisions based on local circumstances, 
not what happens in Libya. It is not apparent that any 
government has taken a softer line on protesters because we 
have bombed Libya. In fact, governments and populations in the 
region recognize that a coalition intervention on behalf of 
citizen's movements is less likely because forces are committed 
to Libya and because the strategic rationale for intervention 
depended on coalition and Arab League support. There will be no 
Arab League request to support the protesters in southern Syria 
or the Shia in Bahrain, for example.
    The White House has emphasized the role being played by 
allies. I applaud any burden-sharing that is achieved. But in a 
revealing development earlier this week, the coalition called 
on the United States to continue airstrikes during a period of 
bad weather, because our capabilities exceeded that of other 
nations.
    Even if allies do assume most of the burden for air 
operations, the longer these operations extend, the more help 
from the United States is likely to be required. Nor should we 
assume that missions performed over Libya by Britain, France, 
and other NATO allies are necessarily cost-free to the United 
States. The commitments of our allies in Libya leave NATO with 
less capacity for responding to other contingencies. We need to 
know, for example, whether the Libyan intervention will make it 
even harder to sustain allied contributions to operations in 
Afghanistan. Will allies say, ``We are dealing with the Libyan 
problem, as you asked, but we can't continue to do this without 
reducing our military commitments elsewhere''?
    Most troubling, we don't know what will be required of the 
United States if there is an unanticipated escalation in the 
war or an outcome that leads to United States participation in 
the reconstruction of Libya.
    At our hearing last week with Deputy Secretary Steinberg, 
many Senators raised concerns about these scenarios. The last 
10 years have illuminated clearly that initiating wars and 
killing the enemy is far easier than achieving political 
stability and rebuilding a country when the fighting is over. 
The American people are concerned about potential commitments 
that would leave the United States with a large bill for 
nation-building in a post-civil-war Libya.
    The President must establish U.S. goals and strategies with 
much greater clarity. He has not stated whether the United 
States would accept a long-term stalemate in the civil war. If 
we do not accept a stalemate, what is our strategy for either 
ending Qadhafi's rule or exiting the coalition? Without a 
defined endgame, Congress and the American people must assume 
U.S. participation in the coalition may continue indefinitely, 
with all the costs and risks that come with such a commitment.
    With all these considerations in mind, I look forward to 
the insights of our witnesses.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Dr. Haass, if you'd begin, and then Mr. Malinowski and Dr. 
Vandewalle.
    Thank you.

   STATEMENT OF HON. RICHARD N. HAASS, PRESIDENT, COUNCIL ON 
                FOREIGN RELATIONS, NEW YORK, NY

    Ambassador Haass. Thank you, Mr. Chairman. Good to see you 
again, and Senator Lugar and Senator Corker. And thank you for 
asking me to appear again before this committee to discuss 
United States policy toward Libya.
    Let me just make clear at the outset that my statement and 
testimony reflect my personal views and not those of the 
Council on Foreign Relations, which takes no institutional 
positions.
    What I thought I'd do is spend a few minutes on lessons to 
be learned, up to now, and then a few minutes on where we might 
go, going forward.
    And I'll summarize my remarks, in the interest of time.
    Armed intervention on humanitarian grounds can sometimes be 
justified. But, before the United States uses military force to 
save lives, let me set forth a number of criteria: We need to 
be sure of the threat; the potential victims should request our 
help; the intervention should be supported by significant 
elements of the international community; the intervention 
should have high likelihood of success at a limited cost, 
including the cost to our other interests; and other policies 
should be judged to be inadequate. And I would say that not all 
of these conditions were satisfied in the Libyan case.
    Second, it was, and is, not obvious, to me at least, that 
what happened, or will happen, in Libya will have significant 
repercussions for what happens elsewhere in the region. Here, 
I'd associate myself with Senator Lugar's comments. The 
dynamics in Syria or Bahrain or Egypt, not to mention Iran, 
Iraq, or Saudi Arabia, will be determined mostly by local 
factors and forces, and not by what happens in Libya.
    I also believe that policymakers in this country and other 
countries made a mistake early on in calling explicitly for 
Muammar Qadhafi's removal. Doing so made it far more difficult 
to employ diplomacy early on to help achieve U.S. humanitarian 
goals without having to resort to military force. By calling 
for his ouster, we removed the incentive that Qadhafi might 
have to stop attacking his opponents. It also put the United 
States at odds with U.N. Security Council Resolution 1973. 
Last, it increases the odds that many would see the 
intervention as failing, so long as Qadhafi remained in power.
    A lot of emphasis has been placed on multilateral support 
for this operation. But, let me say that multilateralism, in 
and of itself, is not a reason for doing something. 
Multilateralism is a mechanism, no more and no less, for 
distributing burdens. It can add to the legitimacy of an 
action, but it can also complicate policy implementation. Such 
pros and cons always need to be assessed, but multilateral 
support does not make a policy that is questionable on its 
merits any less so.
    Now, many people have commented on the reality that our 
policy toward Libya is inconsistent with our policies toward 
other countries. On that, I'd simply say that inconsistency is 
unavoidable in foreign policy. And, in and of itself, 
inconsistency is not a reason for rejecting doing something 
that makes sense, or for undertaking something that does not. 
Some humanitarian interventions may, in fact, be warranted. 
But, that said, we also have to recognize that inconsistency is 
not cost-free. It can confuse the American public, and it can 
disappoint people in other countries, opening us up to charges 
of hypocrisy.
    Senator Kerry, you mentioned the idea that the United 
States has a whole range of interests, up to ``vital.'' And I 
would say that, in principle, it is acceptable to intervene 
militarily in situations where we have interests that are less 
than vital. But, in those cases--and I would call them wars of 
choice--it must be shown that the likely costs are commensurate 
with the interests involved, and again, that other policies 
would not have done equally well or better. Otherwise, I don't 
believe a war of choice can be justified.
    As I expect you've gathered, I did not support the decision 
to intervene with military force in Libya, but, as the saying 
goes, ``We are where we are.'' So, where do we go from here?
    First, we have to begin with intellectual honesty here. We 
must recognize that we face an all-too-familiar foreign policy 
conundrum: There is a large gap between the professed goals of 
the United States and the means we are prepared to devote to 
realizing them.
    Now, anytime there is such a gap between ends and means, 
there are two choices: You can either reduce the ends or you 
can elevate the means. It's about that simple. And the Obama 
administration, up to now, has largely emphasized increasing 
the means; hence the no-fly zone to the no-fly zone plus, and 
now there's apparent interest in arming opposition forces.
    I would advise against taking this path. We cannot be 
confident of the agenda of the opposition toward either the 
Libyan people or various United States interests, including 
counterterrorism. Nor can we be certain, at this stage, as to 
which opposition elements with which sets of goals might, in 
the end, prove dominant. Arms, once transferred, as we learned 
in Afghanistan, can be used for any purpose. And, as we've 
learned in many countries in the greater Middle East, 
situations, however bad, can always get worse.
    The only way I know to ensure the replacement of the 
current Libyan regime with something demonstrably better would 
be through the introduction of ground forces that were prepared 
to remain in place to maintain order and build local capacities 
in the aftermath of ousting the government; essentially, 
nation-building. But, I would also add that United States 
interests in Libya simply do not warrant such an investment on 
our part.
    I also think that it's important to recognize that there's 
little reason to conclude that the Libyan opposition will, 
anytime soon, be able to defeat the Libyan Government. The 
Libyan Government may implode, but we cannot base our policy on 
this hope.
    So, where does this leave us? It argues for reducing the 
immediate aims of American foreign policy and giving priority 
to humanitarian, as opposed to political, goals. This would 
entail undertaking or supporting a diplomatic initiative to 
bring about the implementation of U.N. Security Council 
Resolution 1973, and most importantly, to bring about a cease-
fire.
    What would probably be required--in order to gain the 
support of the opposition--would be a set of political 
conditions, possibly including specified political reforms and 
a degree of autonomy in the east. Sanctions could be introduced 
or removed to effect the acceptance and compliance by the 
government, or the opposition, for that matter. Muammar Qadhafi 
might have to remain in office for a time. The country might 
effectively be divided for some time. And an international 
force could well be required on the ground to keep the peace.
    Such an outcome, I expect, would be criticized by some, but 
it would stop the civil war and it would keep many people alive 
who would otherwise perish. It would create a window for 
political reform and possibly, over time, lead to a new 
government, one without Muammar Qadhafi. And the United States 
could use this time to work with the Libyans in the opposition 
and beyond--in the government, for that matter--to begin the 
process of building national institutions, which will be 
necessary, and to do so in a context without the added burden 
of an ongoing civil war.
    Let me also add that a compromise negotiated outcome would 
also be good for the United States, as it would allow us to 
focus our resources--economic, diplomatic, military, and 
political--elsewhere. Far more important than Libya for United 
States interests in the region are Egypt, Syria, Bahrain, Saudi 
Arabia, Iraq, Jordan, and Iran. But, it is important not to 
lose sight that the Middle East is not the entire chess board. 
The United States needs to reserve resources for other parts of 
the world--the Korean Peninsula comes to mind--for possible 
wars of necessity, for military modernization central to our 
position in the Pacific, and for deficit reduction.
    So, let me close with a general thought. Foreign policy 
must be about priorities. As you all know, the United States 
cannot do everything, everywhere. This consideration would have 
argued for avoiding military intervention in Libya. Now it 
argues for limiting this intervention, what we seek to 
accomplish, and what is required of the United States.
    Thank you again for asking me back. And obviously, I look 
forward to your questions.
    [The prepared statement of Mr. Haass follows:]

              Prepared Statement of Hon. Richard N. Haass

    Mr. Chairman, thank you for asking me to appear before this 
committee to discuss recent U.S. policy toward Libya. Let me make two 
points at the outset. First, my statement and testimony reflect my 
personal views and not those of the Council on Foreign Relations, which 
as a matter of policy takes no institutional positions. Second, I will 
address today's topic from two perspectives: first, the lessons to be 
learned from recent U.S. policy toward Libya, and second, my 
recommendations for U.S. policy going forward.
    Analysis must be rigorous. In two critical areas, however, I would 
suggest that what has been asserted as fact was in reality closer to 
assumption. First, it is not clear that a humanitarian catastrophe was 
imminent in the eastern Libyan city of Benghazi. There had been no 
reports of large-scale massacres in Libya up to that point, and Libyan 
society (unlike Rwanda, to cite the obvious influential precedent) is 
not divided along a single or defining faultline. Gaddafi saw the 
rebels as enemies for political reasons, not for their ethnic or tribal 
associations. To be sure, civilians would have been killed in an 
assault on the city--civil wars are by their nature violent and 
destructive--but there is no evidence of which I am aware that 
civilians per se would have been targeted on a large scale. Muammar 
Gaddafi's threat to show no mercy to the rebels might well have been 
just that: a threat within the context of a civil war to those who 
opposed him with arms or were considering doing so.
    Armed intervention on humanitarian grounds can sometimes be 
justified. But before using military force to save lives, we need to be 
sure of the threat; the potential victims should request our help; the 
intervention should be supported by significant elements of the 
international community; the intervention should have high likelihood 
of success at a limited cost, including the cost to our other 
interests; and other policies should be judged to be inadequate. Not 
all of these conditions were satisfied in the Libyan case. Such an 
assessment is essential if we are asking our troops to put their lives 
at risk, if we are placing other important interests at risk, and if we 
are using economic and military resources that puts our future more at 
risk.
    Second, it was (and is) not obvious that what happened or happens 
in Libya would, or will have, significant repercussions for what 
happens elsewhere in the region. Libya is not a particularly 
influential country; indeed, Gaddafi's isolation in no small part 
explains why it was possible to get Arab League and U.N. support for a 
resolution supporting armed intervention. The dynamics in Syria or 
Bahrain or Egypt, not to mention Iran, Iraq, and Saudi Arabia, will be 
determined mostly by local factors and forces and not by what happens 
in Libya.
    American policymakers erred in calling explicitly early on in the 
crisis for Gaddafi's removal. Doing so made it far more difficult to 
employ diplomacy to help achieve U.S. humanitarian goals without 
resorting to military force. It removed the incentive Gaddafi might 
have had to stop attacking his opponents. The call for Gaddafi's ouster 
also put the United States at odds with much of the international 
community, which had only signed on to a humanitarian and not a 
political mission when voting for U.N. Security Council Resolution 
1973. It increased the odds the intervention would be seen as a failure 
so long as Gaddafi remained in power. And, as I shall discuss, 
requiring Gaddafi's removal actually makes it more difficult to effect 
the implemention of U.N. Security Council Resolution 1973 and stop the 
fighting.
    Multilateralism is not a reason for doing something. 
Multilateralism is a mechanism, no more and no less, for distributing 
burdens. It can add to the legitimacy of an action; it can also 
complicate policy implementation. Such pros and cons need to be 
assessed. But multilateral support does not make a policy that is 
questionable on its merits any less so. To think otherwise is to 
confuse ends and means.
    Inconsistency is unavoidable in foreign policy, and in and of 
itself is not a reason for rejecting doing something that makes sense 
or for undertaking something that does not. Some humanitarian 
interventions may be warranted. But inconsistency
is not cost-free, as it can confuse the American public and disappoint 
people in other countries, in the process opening us up to charges of 
hypocrisy and double standards.
    It is acceptable in principle to intervene militarily on behalf of 
interests deemed less than vital, but in such cases--what I would deem 
``wars of choice''--it must be shown that the likely costs are 
commensurate with the interests involved and that other policies would 
not have done equally well or better in the way of costs and outcomes. 
Otherwise, a war of choice cannot be justified.
    As I expect you have gathered from what I have said here today and 
both said and written previously, I did not support the decision to 
intervene with military force in Libya. But we are where we are. So 
what would I suggest the United States do in Libya going forward?
    We must recognize that we face a familiar foreign policy conundrum, 
namely, that there is a large gap between our professed goals and the 
means we are prepared to devote to realizing them. The goals are 
ambitious: protecting the Libyan people and bringing about a successor 
regime judged to be preferable to what now exists. But the means are 
limited, as the President is clearly looking to our partners in NATO to 
assume the major military role and has ruled out the introduction of 
American ground forces.
    Whenever there is such a gap between ends and means, a government 
has two choices: it can either reduce the ends or elevate the means. 
The Obama administration has up until now mostly emphasized the latter 
course. The no-fly zone was quickly augmented by additional air 
operations designed to degrade Libyan Government forces. This proved 
insufficient to tilt the battlefield decisively in favor of regime 
opponents.
    Now there is apparent interest in arming opposition forces. I would 
advise against taking this path. We cannot be confident of the agenda 
of the opposition toward either the Libyan people or various U.S. 
interests, including counterterrorism. Nor can we be certain as to 
which opposition elements with which set of goals might in the end 
prove dominant. Arms once transferred can be used for any purpose. Bad 
situations can always get worse.
    The only way to ensure the replacement of the current Libyan regime 
with something demonstrably better would be through the introduction of 
ground forces that were prepared to remain in place to maintain order 
and build capacities in the aftermath of ousting the government. As we 
have seen in Afghanistan and Iraq, the only thing certain about such a 
policy trajectory is its human, economic, and military cost. U.S. 
interests in Libya simply do not warrant such an investment on our 
part. And it is obviously far from certain whether any other outside 
party has both the will and the capacity to introduce ground forces on 
a scale likely to make a decisive military difference.
    There is little reason to conclude that the Libyan opposition will 
any time soon be able to defeat the Libyan Government. It appears to 
lack the requisite cohesiveness and skill. The combination of a no-fly 
zone, bombing, and arming might, however, have the effect of leveling 
the playing field and prolonging the civil war, leading to more 
civilian casualties in the process. This would be an ironic result of 
an intervention designed to promote humanitarian ends. The Libyan 
Government may implode, but we cannot base our policy on this hope.
    This all argues for reducing the immediate aims of American foreign 
policy and giving priority to humanitarian as opposed to political 
goals. This would entail undertaking or supporting a diplomatic 
initiative to bring about the implementation of U.N. Security Council 
Resolution 1973 and, most importantly, a cease-fire. A narrow cease-
fire is probably unrealistic, though. What would also be required to 
gain the support of the opposition would be a set of political 
conditions, possibly including specified political reforms and a degree 
of autonomy for certain areas. Sanctions could be added or removed to 
affect acceptance and compliance. Gaddafi might remain in office, at 
least for the time being. The country might effectively be divided for 
some time. An international force could well be required on the ground 
to keep the peace.
    Such an outcome would be derided by some. But it would stop the 
civil war and keep many people alive who would otherwise perish. It 
would create a window for political reform and possibly over time lead 
to a new government without Muammar Gaddafi. The United States could 
use this time to work with Libyans in the opposition and beyond to help 
build national institutions without the added weight of ongoing 
fighting.
    A compromise, negotiated outcome would also be good for this 
country, as it would allow the United States to focus its resources--
economic, diplomatic, military, and political--elsewhere. Far more 
important than Libya for U.S. interests in the region are Egypt, Syria, 
Bahrain, Saudi Arabia, Iraq, Jordan, and Iran. The United States also 
needs to reserve resources for other parts of the world (the Korean 
Peninsula comes to mind), for possible wars of necessity, for military 
modernization central to our position in the Pacific, and for deficit 
reduction.
    Foreign policy must be about priorities. The United States cannot 
do everything everywhere. This consideration would have argued for 
avoiding military intervention in Libya; now it argues for limiting 
this intervention in what it seeks to accomplish and what it requires 
of the United States.
    Thank you for this opportunity to appear before this committee. I 
look forward to your questions.

    The Chairman. Thank you, Dr. Haass.
    Mr. Malinowski.

STATEMENT OF TOM MALINOWSKI, WASHINGTON DIRECTOR, HUMAN RIGHTS 
                     WATCH, WASHINGTON, DC

    Mr. Malinowski. Thank you, Chairman Kerry, Senator Lugar, 
members of the committee. Thanks for asking me to come and 
speak to you about this subject today.
    I want to start by saying that my organization, Human 
Rights Watch, has been following events in Libya for a number 
of years. We've conducted numerous missions in the country. 
I've met, on trips to Libya, members of Qadhafi's government, 
including some of the officials who've gone over, now, to the 
opposition. And we have been in close contact, for a number of 
years, with some of these incredibly brave human rights 
activists, in Benghazi and other parts of the country, who have 
now formed the core of the opposition movement. We've also had 
staff on the ground in eastern Libya, since the uprising began, 
observing these events as they've unfolded.
    There's been a lot of discussion about how we don't know 
who the opposition is. And I don't think that's quite fair. I 
think we do know a great deal about them. Certainly, my 
organization has known them for some time. And one thing I can 
attest to you today is that this is not just a localized 
uprising, centered on Benghazi or eastern Libya. It's not, in 
my view, a classic civil war between east and west fighting 
over control of the center. What we saw in Libya, starting in 
February, was really a nationwide popular uprising against the 
Qadhafi government. The difference is that in the west, except 
for Misrata, which is still holding out, the opposition 
movement was brutally put down. In the east, they overcame the 
security forces and found themselves, to their enormous 
surprise, in charge of a large amount of territory.
    Now, about 3 weeks ago, we found Qadhafi's forces marching 
on that territory in the east, where the opposition was still 
in control. Qadhafi said that he would show no mercy to the 
``rats,'' as he called them, who had risen up against him in 
that part of Libya. And a humanitarian catastrophe, I think, 
was clearly imminent.
    The Obama administration and its international allies did 
act just in time to stop that from happening. In my view, this 
was probably the most rapid multinational military response to 
an impending human rights crisis in history, with broader 
international support than any of the humanitarian 
interventions we've conducted in the past, including Bosnia and 
Kosovo and others in the 1990s.
    Now, precisely because the international community did act 
in time, before Qadhafi retook Benghazi, we never saw what 
might have happened, had he retaken that city. And so, it's not 
as evident to us--we don't feel what was accomplished, because 
we didn't see those events unfold. This is the classic dilemma 
of preventive action.
    And so, just a few days into the military operation, we've 
moved on to a new set of questions--very difficult, very 
legitimate questions that others have raised and I'm sure we'll 
discuss today. But before the debate moves on to those 
questions, we ought to at least acknowledge what would likely 
be happening in eastern Libya today, had Qadhafi's forces 
continued their march.
    First, there would have been a brutal siege of the city of 
Benghazi. Just look at the dozens of burnt-out tanks and rocket 
launchers and missiles that were stopped on the road to the 
city. It gives us some idea of what might have been unleashed 
on the people of Benghazi. Look at what's happening in Misrata 
today, a smaller city that's holding out against a similar 
assault.
    Second, we would have seen, I think, a merciless campaign 
of repression against Libyans in that city and all the others 
in eastern Libya who dared to stand up against Qadhafi. 
Qadhafi's long track record of torturing and arresting and 
disappearing and killing his political opponents, which we've 
documented over the years, attests to that. And I think this 
would have haunted us for quite some time.
    Third, the Libyans who rose up against Qadhafi in the east 
would have felt defeated, humiliated, betrayed by the west. 
We'd have seen many thousands of young men from that region 
living in refugee camps, wandering around the Middle East, 
feeling defeated. I would say that would be an al-Qaeda 
recruiter's dream and something that we had a national interest 
in avoiding.
    Finally, I do agree with President Obama, that there would 
have been an impact on events in other countries in the Middle 
East. Perhaps not decisive or determinative, but I think one 
thing we have seen in this whole drama over the last few months 
is that events in one country in the Middle East affect events 
in all of the others. That's been the whole story of the Arab 
Spring, with something that began in Tunisia inspiring people 
in Egypt, which then inspired people in Libya and other 
countries. And I think there's no question that authoritarian 
leaders would have concluded, had Qadhafi won, that Hosni 
Mubarak, in Egypt, made a very big mistake by not killing 
everybody in Tahrir Square, and that Qadhafi's survival 
strategy is the one to emulate.
    And I think, if all of these things had happened, Mr. 
Chairman, we probably would still be talking about Libya today. 
You might be holding the same hearing, but it would be a very, 
very different kind of conversation, a much darker conversation 
than the one that we're going to have.
    Now, all of that said, even if Benghazi may now be safe 
from Qadhafi's tanks, obviously his thugs still have free rein 
to shoot demonstrators in Tripoli and other cities in the west. 
In Misrata, the civilian population is still besieged. And, 
unless a secure humanitarian corridor is established to that 
city, it's hard to see how the half-million residents of 
Misrata can endure a protracted conflict. And, for the moment, 
a protracted standoff does look possible. Libya is, for the 
moment, divided in two.
    But, I think we need to remember the choice that President 
Obama and other leaders faced a few weeks ago. They could 
either allow Libya to be reunified, but under Qadhafi, or help 
at least a large part of the country escape that fate. And by 
trying to reunify it under better circumstances, I think 
President Obama chose the better of those two difficult 
options.
    And I don't think we should underestimate the strength of 
the nonmilitary measures that are now in place to pressure the 
regime. The men around Qadhafi, the men who are ultimately 
going to decide his fate, now know something, after all, that 
they didn't know just a few weeks ago. They know that their 
leader will never again be able to sell a drop of Libyan oil, 
and they know that he will never be able to retake the large 
parts of Libya that he has lost. And now we have time, which we 
did not have a few weeks ago.
    How should we use that time? Well, in part I think we 
should use it to help the opposition strengthen its capacity to 
govern in the east so that they are better prepared to play 
their part in governing the country in the future. They face an 
enormously steep learning curve. As I said, they had no idea 
they would be doing this, just 2 months ago. But, they have 
been very responsive to our concerns. We've been in their 
offices every day for the last month, raising all kinds of 
issues, and they have been very responsive. They need help in 
setting up a justice system, courts, police, all of the 
elements of a functioning state. We ought to be working with 
them on planning a future transition to a constitutional rule 
of law state, talking to them about how to manage oil revenues 
in an accountable and transparent way, working with them to 
secure stocks of weapons, including shoulder-fired missiles 
that some of our researchers stumbled upon unsecured in a 
warehouse recently in eastern Libya, as well as land mines and 
unexploded ordnance.
    I know there's been a lot of talk about whether to arm the 
rebels. I think there should be much more focus on sending 
civilian teams to start addressing these and other challenges 
of governance. This is the moment, after all, when the 
character of the future Government of Libya is being 
determined. It's also the moment where we have the maximum 
amount of leverage on the people who may form that government 
in the future.
    Now, in time, I think the opposition forces will be 
stronger and better prepared. Meanwhile, as these extremely 
stringent sanctions take their toll, I think the regime, what's 
left of it, will grow weaker. Defections will obviously 
contribute to that, as well. I think there's a very strong 
argument here for patience and for following the kind of 
approach that the United States followed, for example, in the 
case of Kosovo, after a military action to protect
the civilian population in one part of Serbia, followed by 
political strategy that ultimately succeeded in changing the 
character of the larger part of Serbia.
    It's not going to be easy. We don't know exactly what's 
going to happen tomorrow. We never do. But, we do know what's 
been averted, and I think that's very important. And I think 
it's fair to say that had we not done what was done, had we 
stood aside, we would not have escaped the problems of Libya. 
The United States would still be embroiled in the country, 
enforcing sanctions long term, evacuating opposition 
supporters, assisting refugees, dealing with an unpredictable 
and angry Qadhafi. But, we would have been embroiled in a 
tragedy, rather than in a situation that now at least has a 
chance to end well.
    So, I'd prefer the uncertainties that we face now, all of 
the uncertainties that you mentioned, Mr. Lugar, which I agree 
are profoundly important--I still prefer those uncertainties to 
the certainties we would have faced, had this not happened.
    Thank you.
    [The prepared statement of Mr. Malinowski follows:]

                  Prepared Statement of Tom Malinowski

    Chairman Kerry, members of the committee, thank you for this 
opportunity to testify today.
    Human Rights Watch has been following events in Libya closely since 
2005. We were able to send several investigative missions there in 
recent years and were the first international organization to release 
on Libyan soil a report on the human rights situation in the country. 
We met on numerous occasions with senior officials in the Libyan 
Government, including the Justice and Interior Ministers, who have now 
joined the opposition. We were also in regular contact with amazingly 
brave human rights activists throughout the country who tried, despite 
constant harassment and risk of arrest, to challenge the Qaddafi 
government's repression. Among them was a group of lawyers in Benghazi 
who represented families of political prisoners killed or disappeared 
by the government, and who were waging what seemed like a hopeless 
struggle to get justice for victims of Qaddafi's misrule. Now, those 
same lawyers and activists are playing a key role in the opposition 
movement.
    Many of the activists who have since risen to prominence in the 
opposition came from the city of Benghazi, but certainly not all of 
them. Indeed, it is important to note that what we have seen unfold in 
Libya is not, as some have suggested, a classic civil war in which 
factions from the eastern and western parts of the country vie for 
control of the center. What began on February 15 of this year became a 
nationwide uprising against the Qaddafi government. It was joined by 
the people of many cities and towns in western Libya, including 
Tripoli, Zawiyah, Zwara, and Sabratha, where protests were brutally 
suppressed, as well as Misrata, Libya's third-largest city, where 
opposition forces remain besieged. In eastern Libya, unlike in the 
west, the people overcame security forces, some of whom abandoned the 
government side; but this difference does not make the conflict in 
Libya a war between east and west. It remains fundamentally a struggle 
between a government and its people.
    Since the Libyan opposition took control of eastern Libya, we have 
had staff on the ground there, documenting abuses perpetrated by the 
government before the rebels took control, monitoring the fighting and 
its impact on civilians, and engaging with the opposition authorities 
to ensure that they abide by the human rights principles that they say 
they embrace, and that they repeatedly say they were denied for 41 
years.
    We have also tried our best to monitor what is happening in the 
parts of Libya that the Qaddafi government still controls, though we 
have no direct access to those areas. We documented a campaign of 
arbitrary arrests in Tripoli and other places in the west against 
Libyans who were suspected of supporting the opposition, or of 
communicating with the media or people outside Libya about conditions 
in the country.
    When Qaddafi's forces launched their counteroffensive against the 
rebels in the east in early March, we feared that much larger scale 
atrocities might unfold if they reached the city of Benghazi and other 
opposition-held towns further east. But the Obama administration and 
its international allies acted soon enough to prevent this from 
happening. Indeed, though this intervention felt painfully slow to the 
people of Benghazi as Qaddafi's army bore down upon them, it was, by 
any objective standard, the most rapid multinational military response 
to an impending human rights crisis in history, with broader 
international support than any of the humanitarian interventions of the 
1990s, such as Bosnia and Kosovo.
    Precisely because the international community acted in time--before 
Qaddafi retook Benghazi--we never saw what might have happened had it 
not acted. Today in eastern Libya, there are no columns of refugees 
marching home to reclaim their lives; no mass graves testifying to the 
gravity of the crisis; no moment that symbolizes a passing from horror 
to hope. The attack on Benghazi was the proverbial dog that didn't 
bark. And so, just days into the military operation, everyone has moved 
on to a new set of questions. What is the ultimate objective of the 
mission--to protect civilians or to remove Qaddafi? How long will the 
operation last? How much will it cost? What happens if Qaddafi holds 
on, and what follows him if he goes? These are all important questions.
    But before the debate moves on, as it must, we should acknowledge 
what could be happening in eastern Libya right now had Qaddafi's forces 
continued their march. The dozens of burned out tanks, rocket 
launchers, and missiles bombed at the eleventh hour on the road to 
Benghazi would have devastated the rebel stronghold if Qaddafi's forces 
had unleashed them indiscriminately, as they have in other, smaller 
rebel-held towns. The continuing siege of Misrata, where Qaddafi's 
troops have apparently lobbed mortar and artillery shells into 
populated areas, opened fire on civilians, and cut off the supply of 
water and electricity to a population of 500,000, gives us some 
indication of what might have happened, on a larger scale, if they had 
been able to assault Benghazi.
    Qaddafi's long track record of arresting, torturing, disappearing, 
and killing his political opponents to maintain control (including the 
murder of 1,200 people in a single day in the Abu Salim prison in 1996) 
suggests that had he recaptured Benghazi and other cities in the east, 
like Baida and Tobruk, a similar fate would have awaited those who 
supported the opposition there. Qaddafi's threat that he would show 
``no mercy'' to the ``rats'' who rose up to challenge his rule had to 
be taken seriously. The people of eastern Libya certainly believed him: 
tens of thousands of them had already fled to Egypt fearing Qaddafi's 
assault. Hundreds of thousands more could have followed if the east had 
fallen.
    Of course, we will never know for sure what would have happened had 
Qaddafi's forces continued their march. But if the international 
community had waited until we knew the answer to that question, any 
intervention would have come too late for the victims of the Libyan 
Government's assault on the east. This is the classic dilemma of 
preventive action. It is also why nations and Presidents tend to get 
more credit for riding to the rescue after atrocities begin, when 
images of suffering and death have already been broadcast throughout 
the world, than before they get out of hand. But it is better to act 
sooner when there is good reason to believe that extremely grave and 
widespread human rights abuses are likely to unfold. That was the case 
in Libya.
    Another dilemma we face in these situations is that there are 
always many places in the world where people suffer terrible human 
rights abuses. Libya is far from the only country where security forces 
fire on peaceful demonstrators, or lay siege to civilian populations, 
or imprison or shoot government critics. The United States can and 
should be more consistent in how it responds in such cases, especially 
when the government committing the abuses is an ally. But a military 
response is rarely appropriate or possible. Nor does the international 
community's failure to confront human rights abuses in some cases mean 
that, for the sake of consistency, it should fail to confront them in 
all cases.
    In Libya, there were several factors that made a military 
intervention to protect the civilian population more feasible than it 
might have been elsewhere: there were strong calls from the Libyan 
opposition for such assistance; there was broad international support, 
including from the Arab League and a U.N. Security Council resolution 
authorizing the use of ``all necessary means'' to protect Libyan 
civilians; and the military task itself--stopping tanks and artillery 
on an open road before they reached the civilian population of 
Benghazi--could be accomplished while minimizing risks both to allied 
forces and to civilians.
    There were also other potential consequences had Qaddafi forces ran 
rampant in the east. Since the self-immolation of a vegetable vendor 
set off a democratic uprising in Tunisia, which inspired a revolution 
in Egypt, which in turn sparked challenges to dictatorships from Libya 
and Bahrain to Yemen and Syria, we have seen how events in one country 
in the Middle East can affect the region as a whole. Would a bloody end 
to the Libyan uprising have doomed democratic movements elsewhere in 
the Middle East? By itself, no. But there is no question that it would 
have demoralized champions of peaceful change, who had such a sense of 
possibility and hope after watching the peaceful protesters in Tunisia 
and Egypt win. Had Qaddafi crushed the Libyan uprising by force, there 
is also little doubt what lesson other authoritarian rulers in the 
region and beyond would have drawn: That Egyptian President Hosni 
Mubarak was wrong not to have killed the protestors in Tahrir Square, 
and that Qaddafi's survival strategy was the one to emulate.
    Meanwhile, the Libyans who rose up against Qaddafi in the east 
would have felt defeated and humiliated, and also betrayed by the West. 
Some of them might have continued their resistance inside Libya; others 
might have fled, ending up in refugee camps or wandering about the 
Middle East. I would note that some legitimate concerns have been 
expressed about recruitment by militant groups, including
al-Qaeda, in eastern Libya in the past. In our experience, the vast 
majority of people in this part of Libya want nothing to do with 
terrorism. But it's easy to imagine how groups like al-Qaeda might have 
exploited the anger and despair that would have followed massive 
atrocities by Qaddafi's forces while the West stood aside.
    Now, instead, the people of eastern Libya appear to be cobbling 
together a new political identity based on their participation in a 
movement that professes support for democratic principles, and grateful 
to the international community for the assistance they have received.
    Of course, even if the tragic events I've described have been 
avoided, even if Benghazi is safe for now from Qaddafi's tanks, his 
thugs still have free rein to shoot demonstrators in Tripoli and other 
cities he controls. Civilians in towns close to the front line, like 
Ajdabiya, have either fled or remain insecure. In Misrata, the civilian 
population is still besieged. Qaddafi's tanks and snipers are in the 
city, where it is hard for coalition aircraft to stop them. Some aid is 
just now beginning to come in by sea, but Qaddafi forces continue to 
shell the port, and the people of the city are in desperate straits. 
Unless a secure humanitarian corridor is established, it is hard to see 
how they can endure a protracted conflict. And for the moment, a 
protracted standoff does look likely; Libya is indeed divided in two.
    But not long ago, it looked as if Libya would be reunified under a 
vengeful despot with a long record of violent abuse. Now at least a 
large part of the country has escaped that fate. As for the rest, we 
should not underestimate the non-military measures that the United 
States, the European Union, and the United Nations have implemented. 
After all, the men around Qaddafi, who may well decide his fate, now 
know something that they didn't just a few weeks ago: that their leader 
will never again be able to sell a drop of Libya's oil, or to retake 
the large parts of Libya he has lost. The defection of Qaddafi's long-
time Intelligence Chief and Foreign Minister, Musa Kusa, suggests that 
these facts are beginning to be understood within the Libyan leader's 
inner circle.
    When Qaddafi's forces were massing outside of Benghazi, there was 
no time left to protect the Libyan people or to help them build a 
future in which their human rights would be respected. Now, at the very 
least, there is time.
    There is time, for example, for the international community to help 
the Libyan opposition strengthen its capacity to govern the parts of 
Libya it controls, and to prepare to play its part in governing the 
country in the future. As I mentioned, we have weighed in with many 
members of the opposition council in Benghazi. They have made their 
share of mistakes, and not just on the battlefield (including 
mistreatment of detainees). They face a steep learning curve--none of 
them, after all, had any idea 2 months ago that they would be running 
much of the country today. But when we have raised concerns about their 
conduct or offered ideas, we have found them to be responsive. They are 
eager for assistance, advice, and training, which the United States, 
the European Union, and the United Nations can and should provide.
    They could use assistance in establishing a police force that 
respects human rights, a functioning, independent judiciary, and a 
system for dealing humanely with captured fighters and other prisoners. 
They would benefit from advice in planning for a transition from 
Qaddafi's totalitarian state to a democratic state under the rule of 
law. And they need to hear, clearly and consistently, that the 
international community will hold them to their professed principles 
(they should be reminded, for example, that the International Criminal 
Court will be examining their conduct as well as that of Qaddafi's 
government).
    The United States and other countries should also be talking to 
them now about how to manage Libya's oil wealth in an accountable and 
transparent manner, to avoid the resource curse that has undermined 
democracy in so many other oil rich states. Those countries that have 
frozen the Qaddafi government's assets should consider finding ways of 
making funds available to the opposition, but on the condition that all 
transactions are properly audited and that opposition discloses what it 
earns and spends. The opposition should also be encouraged to make 
commitments now about the future governance of Libya's sovereign wealth 
fund. When a new government is established, frozen assets should be 
released to it once a framework is put into place for managing the fund 
consistent with the U.N. Security Council's affirmation (in resolution 
1973) that such assets should be made available ``to and for the 
benefit of the people'' of Libya.
    The opposition authorities also urgently need help in dealing with 
landmines laid by Qaddafi's forces and other unexploded ordinance, as 
well as in securing dangerous weapons that could leak to terrorist 
groups (including shoulder-fired missiles capable of bringing down 
civilian aircraft).
    There has been a lot of talk about whether to arm the rebels and 
about CIA teams running around Libya. There should be much more focus 
on sending civilian teams to start addressing these and other 
challenges of governance. The State Department's decision to send an 
envoy to Benghazi to engage with the opposition is a good start. The 
most important question Libya faces, after all, is not whether Qaddafi 
leaves but what will follow. This is the moment when the character of 
the future Government of Libya is being determined. This is also the 
moment when the international community has the greatest leverage.
    In time, with appropriate assistance, the opposition forces will be 
better prepared to move Libya toward a more democratic future. 
Meanwhile, as sanctions take their toll, and defections continue, 
what's left of the Qaddafi government will likely grow weaker. There 
may be opportunities for mediation as this process unfolds. There is 
certainly a strong argument here for patience.
    None of this will be easy. And of course we do not know with any 
certainty what will happen tomorrow much less a few months or years 
down the road. We never do. But we do have some sense of what has been 
averted in Libya.
    I think it's fair to say that had the international community stood 
aside and Qaddafi retaken Benghazi, the United States would still have 
been embroiled in Libya--enforcing sanctions, evacuating opposition 
supporters, assisting refugees, dealing with an unpredictable and angry 
Qaddafi. But it would have been embroiled in a tragedy rather than a 
situation that now has a chance to end well. I prefer the uncertainties 
we face today to the certainties we would have faced had that tragedy 
happened.
    Thank you very much.

    The Chairman. Thank you, Mr. Malinowski, very good 
testimony.
    Mr. Vandewalle.

    STATEMENT OF DIRK J. VANDEWALLE, ASSOCIATE PROFESSOR OF 
           GOVERNMENT, DARTMOUTH COLLEGE, HANOVER, NH

    Dr. Vandewalle. Mr. Chairman, thank you, first of all, for 
inviting me to testify before this committee.
    In the struggle over Libya, as the fighting moves back and 
forth, the easy part is over. Whether or not Libya descends 
into a true civil war that would pit the west against the east 
is no longer really a Libyan matter; rather, it is in the hands 
of the International Coalition Forces that entered the fray in 
the wake of U.N. Resolution 1973.
    My talk to you today, Mr. Chairman, is predicated upon the 
assumption that Mr. Malinowski just talked about, that Qadhafi 
will eventually leave the political scene in Libya. And 
assuming that that is the outcome, Libyans will face, in its 
aftermath, enormous difficulties.
    With virtually all modern state institutions having been 
eviscerated or neglected by the Qadhafi government, Libya will 
confront the simultaneous need to restructure its economy away 
from excessive reliance on the state and on oil income; to come 
up with a new political formula that is acceptable to a number 
of different players that have traditionally been antagonistic, 
but that were held together artificially by the authoritarian 
policies of the Qadhafi government; and to create a system of 
law that serves its citizens equitably.
    The United States and the international community, 
therefore, should do all in their power to help create facts on 
the ground that alleviate traditional tensions and fault lines 
in Libya.
    For all the sympathy the United States may currently feel 
for the opposition movement, headed by the Interim National 
Council, it should be cautious, at this point, about 
unconditionally supporting it. The declaration the Council 
issued on the 29th of March, A Vision of a Democratic Libya, 
contains all the buzzwords about democratic government and rule 
of law that appeal to the international community eager to see 
Qadhafi disappear.
    But, democracy usually only comes at the end of a long 
process of institutionalization that is predicated precisely 
upon the kind of institutional checks and balances Libya has 
never possessed. If the INC became the de facto government, it 
would be hard-pressed to create them ex nihilo, in the 
aftermath of the conflict. Perhaps inevitably, the Interim 
National Council's declaration is a document that is, more than 
anything, aspirational. It contains, as yet, no clear vision of 
how the opposition intends to bring the different sides 
together in a post-conflict situation; how it intends to deal 
with those who have supported the Qadhafi regime; how it 
envisions the creation of truly national and representative 
institutions that will serve Libya as a whole.
    Genuine support for Qadhafi has traditionally been stronger 
in the western province. The country's longstanding, checkered 
history between the two northern provinces harks back to the 
creation of the Kingdom of Libya, in 1951, when the western 
province, anxious for independence, resentfully agreed to be 
pushed together by the great powers into a single political 
entity, ruled by the monarchy, with its roots in the eastern 
part of the country. Ironically, history could very well be 
repeating itself under the auspices of the international 
coalition. And the resentment within the western province would 
be enormous if, once more, a government were created or foisted 
upon it by an eastern-led rebel movement or through the support 
of the international community.
    This does not mean, of course, that the Interim Council 
could not eventually emerge as a unified political body that 
represents--truly represents Libyan national interests. But, 
the extraordinary support of, particularly, the United States 
for the rebel cause should certainly allow us to press Council 
members much harder on some of these unresolved questions that 
will determine how likely and how feasibly their vision truly 
is.
    As the United States continues to find its way eventually 
toward a long-term coherent Libya policy, there are some 
guidelines about a possible involvement in the country's 
immediate future that we may want to keep in mind. As you 
pointed out, Mr. Chairman, our military role is somewhat 
diminishing. But, there are several other areas where the 
United States possesses unique resources Libya will very badly 
need once the fighting is halted.
    The reconstruction of Libya will need to be both integrated 
and systemic, interweaving various social, political, legal, 
and economic initiatives that can help prevent the kind of 
backsliding that separate efforts at economic and legal or 
political liberalization, if made in isolation, often provoke.
    Because of the evisceration of all political, legal, and 
social institutions under Qadhafi, Libya will be severely 
lacking in even the basic understandings of how modern 
representative governments and the rule of law work. Our 
natural impulse will be to insist on elections as soon as 
possible, because that is our tradition. But, elections without 
the prerequisites for a modern democracy in place--and here, I 
think Libya will be found profoundly deficient--are hollow and 
counterproductive.
    With its vast experience of political capacity-building 
through a large number of government agencies, however, the 
United States is in a unique position to help create a 
sustainable network of civil, social, and political 
institutions that can build the foundations of a future 
democratic Libya.
    Furthermore, the economic reconstruction of Libya's economy 
after four decades of inefficient state management, cronyism, 
and widespread patronage, could provide a sustained focus for 
United States expertise. Almost 95 percent of Libya's current 
income is derived from oil and natural gas. How the proceeds 
from this hydrocarbon fuel economy are distributed will be seen 
as crucial by all sides in Libya. This will require a number of 
very creative solutions to keep the country unified. The United 
States could be very helpful in mediating and suggesting a 
number of ways out of the conundrums Libya will encounter in 
this regard, perhaps by suggesting, as we did in 1951, the 
creation of a federal formula that provides incentives for the 
different provinces and tribes to work together, rather than go 
their own way.
    In addition, the United States should be proactive in 
helping establish or support those institutions, such as the 
International Criminal Court, that will hold the Qadhafi 
government responsible and accountable for the crimes it has 
committed.
    But, we could go even further. Since the settling of scores 
seems inevitable in Libya after decades of Qadhafi's deliberate 
divide-and-rule policies, the United States could establish a 
Libyan version--or help establish a Libyan version of the Truth 
and Reconciliation Commission that brought political opponents 
in South Africa to some kind of understanding.
    Libya is a tribal society. Such societies have very long 
memories, and 40 years of Qadhafi's rule made some 
collaboration with the regime virtually unaccountable for 
almost everyone. In thinking about rebuilding Libya, any actor 
who can help prevent the settling of scores will be seen as a 
very valuable interlocutor.
    In conclusion, the challenges for the reconstruction of 
Libya will be enormous. For the first time since independence 
in 1951, Libyans, at the end of their war of attrition, will be 
asked to create a modern state that provides checks and 
balances between its citizens and those who rule over them. 
Four decades of fragmentation of the country's society and the 
competition for the country's massive oil revenues will make a 
consensus around such a creation exceedingly difficult.
    Once the euphoria over the future removal of Qadhafi 
eventually would wear off, the hard choices of state-building 
within Libya lie ahead. In a political landscape where citizen 
loyalties very deliberately never aggregated at the national 
level, this road ahead will prove unsettling and uncertain. And 
it will undoubtedly provide ample opportunities for those who 
want to obstruct that process.
    To avoid this, the country will need substantial expertise 
that will help a post-Qadhafi Libya to build a new democratic 
state, to reform and develop its badly functioning economy, and 
to improve local democratic governance through a number of 
educational, economic, and political initiatives.
    In conclusion, Mr. Chairman, let me say that Libya's 
survival as a unified country will depend not only on its own 
citizens, and not only on how its own citizens deal with its 
longstanding fissures, but also on the careful planning of 
outside powers. The United States is uniquely situated to help 
Libyans address those multiple overlapping tasks and, for the 
first time, to create a political entity--to help create a 
political entity in Libya that all its citizens can truly 
ascribe to.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Vandewalle follows:]

              Prepared Statement of Dr. Dirk J. Vandewalle

    In the struggle over Libya, as the fighting moves westward, the 
easy part is over. Whether or not Libya descends into a true civil war 
that would pit the western and eastern provinces of Tripolitania and 
Cyrenaica against each other is no longer a Libyan matter. Rather, it 
is in the hands of the international coalition forces that entered the 
fray in the wake of United National Security Resolution 1973.
    With coalition support the rebels can resist Qadhafi's forces and--
albeit more problematic--perhaps advance into Tripolitania and into 
Tripoli, displacing Qadhafi. This is what most Western leaders want but 
are constrained to openly ask for in light of Resolution 1973. Without 
the coalition the rebels have very little chance of succeeding in the 
near future, the resulting stalemate effectively creating the 
conditions for civil war. If the struggle moves westward, the 
coalition's mandate to protect civilians becomes increasingly unclear 
if those civilians are Qadhafi supporters in Tripolitiania who ask for 
no protection--or seek protection against the onslaught of rebel 
forces.
    Assuming the outcome of the ongoing conflict in Libya means the 
removal of Qadhafi, the economic, social, and political challenges 
Libyans will face in its aftermath will be enormous. With virtually all 
modern state institutions having been eviscerated or neglected by the 
Qadhafi government, Libya will confront a simultaneous need to 
restructure its economy away from excessive reliance on the state and 
on hydrocarbon revenues; to come up with a political formula that is 
acceptable to a number of different players that have traditionally 
been antagonistic but that were held together artificially by the 
authoritarian policies of the Qadhafi government; and to create a 
system of law that serves its citizens equitably. All of this will need 
to be established in an oil economy that creates all kind of 
opportunities for different Libyans players--individuals, families, 
tribes, and provinces--to pursue their own interests at the expense of 
whatever kind of new Libya may emerge.
    Strictly speaking, what will be needed is not simply the 
reconstruction of the political, social, legal and economic 
institutions of a Libya past, but in more significant ways the creation 
for the first time of the kinds of rules, mutual obligations, and 
checks and balances that mark modern states and how they interact with 
their societies. In light of the traditional antagonisms between 
different tribal groups and between the different provinces and the 
lack of institutional frameworks to resolve differences, governance 
challenges in the postQadhafi period will be enormous.
    The United States and the international community, therefore, 
should do all in their power to help create facts on the ground that 
alleviate those traditional tensions and faultlines. For all the 
sympathy the United States may currently feel for the opposition 
movement headed by the Interim National Council (INC), it should be 
cautious about unconditionally supporting it. The declaration the 
Council issued on 29 March 2011--``A Vision of a Democratic Libya''--
contains all the buzzwords about democratic government and rule of law 
that appeal to an international community eager to see Qadhafi 
disappear, and to have any alternative take hold. But democracy usually 
only comes at the end of a process of institutionalization that creates 
precisely the institutional checks and balances Libya has never 
possessed. If the INC became the de facto government, it would be hard 
pressed to create them ex nihilo in the aftermath of the conflict.
    Perhaps inevitable, the Interim National Council's declaration is a 
document that is more than anything aspirational. It contains, as yet, 
no clear true vision of how the opposition intends to bring the 
different sides together in a post-conflict situation; how it intends 
to deal with those who have supported the Qadhafi regime; how it 
envisions the creation of truly national and representative 
institutions that will serve Libya as a whole.
    Despite the claims that it represents the entire country, the INC 
so far is national once more only in its aspirations. Only roughly 12 
of its members are known. The remainder, claimed to geographically 
represent the rest of the country, are kept secret for alleged fear of 
retaliation by the Qadhafi government. Not surprising in light of 
Qadhafi's policies, none is a truly national figure who can command 
allegiance in all provinces and across all tribes.
    Genuine support for Qadhafi has traditionally been stronger in 
Tripolitania. The country's longstanding checkered history between the 
two northern provinces harks back to the creation of the Kingdom of 
Libya in 1951 when Tripolitiania, anxious for independence, resentfully 
agreed to be pushed together by the Great Powers into a single 
political entity ruled by the Sanusi monarchy with its roots in 
Cyrenaica. History could well repeat itself under the auspices of the 
international coalition--and the resentment within Tripolitania would 
be enormous if once more a government were foisted upon it either by a 
Cyrenaican-led rebel movement or through the support of the 
international community.
    This does not mean of course that the Interim National Council 
could not eventually emerge as a unified political body that represents 
Libyan national interests. But the extraordinary support of the United 
States for the rebel cause should certainly allow us to press Council 
members much harder on some of these unresolved questions that will 
determine how likely and feasible their vision truly is.
    As the United States continues to find its way toward a long-term, 
coherent Libya policy, there are some guidelines about a possible 
involvement in the country's immediate future we may want to keep in 
mind. We should first of all realize that in a post-conflict Libya we 
will encounter a country that is not only torn and traumatized by 
multiple, deep-seated social and economic divisions--but also a country 
that will, as part of its historical legacies, be extremely reluctant 
to see any outside power establish a powerful presence.
    How then should we deal with a post-Qadhafi Libya? How can the 
United States play a productive role in Libya's future without 
jeopardizing its standing among the different family, tribal, and 
provincial factions that will inevitably reemerge in a country where 
Qadhafi violently suppressed all rivalries and divisions for over four 
decades?
    There are in fact several areas where the United States possesses 
unique resources Libya will badly need once the fighting is halted. The 
reconstruction of Libya will need to be both integrated and systemic, 
interweaving various social, political, legal, and economic initiatives 
that can help prevent the kind of backsliding that disparate efforts at 
economic and legal reform or political liberalization if made in 
isolation often provoke.
    Because of the evisceration of all political, legal, and social 
institutions under Qadhafi, Libya will be severely lacking in even the 
basic understandings of how modern, representative governments and the 
rule of law work. Our natural impulse will be to insist on elections, 
as soon as possible. But elections without the prerequisites for a 
modern democracy in place--and here Libya will be found profoundly 
deficient--are hollow and counterproductive. Libyans are unlikely to be 
impressed with calls for early elections in a country where justice and 
the most basic checks and balances to make a democratic system work are 
not yet in place. With its vast experience of political capacity-
building through a large number of government agencies, however, the 
United States is in a unique position to help create a sustainable 
network of civil, social, and political institutions that can build the 
foundations of a future, democratic Libya.
    Furthermore, the economic reconstruction of Libya's economy after 
four decades of inefficient state management, cronyism, and widespread 
patronage could provide a sustained focus for United States expertise. 
Almost 95 percent of Libya's current income is derived from oil and 
natural gas. How the proceeds from this hydrocarbon-fueled economy are 
distributed will be seen as crucial by all sides.
    This will require a number of creative solutions to keep the 
country unified. The United States could be helpful in mediating and 
suggesting a number of ways out of the conundrums Libya will encounter 
in this regard--perhaps by suggesting a federal formula that provides 
incentives for the different provinces and tribes to work together 
rather than go their own way. A more diversified and decentralized 
economy will make the reappearance of a dictator less likely: it is 
precisely the unchecked centralization and spending of revenues in oil 
economies that often sustain authoritarian governments through 
intricate patronage systems managed from the center. A carefully 
balanced federal formula once more would prove immensely helpful in 
this regard.
    In addition, the United States should be proactive in helping 
establish or support those institutions, such as the International 
Criminal Court, that will hold the Qadhafi regime responsible and 
accountable for the crimes it has committed against its own citizens. 
But we could go even further. Since the settling of scores seems 
inevitable in Libya after decades of Qaddafi's deliberate divide-and-
rule policies, the United States could help establish a Libyan version 
of the Truth and Reconciliation Commission that brought political 
opponents in South Africa to some kind of understanding. Libya is a 
tribal society; such societies have long memories, and 40 years of 
Qadhafi's rule made some collaboration with the regime virtually 
unavoidable for almost everyone. In thinking about rebuilding Libya, 
any actor who can help prevent the settling of scores will be seen as a 
valuable interlocutor.
    In conclusion, the challenges for the reconstruction of Libya will 
be enormous. For the first time since its independence in 1951, Libyans 
at the end of their war of attrition will be asked to create a modern 
state--that provides checks and balances between its citizens and those 
who rule over them. Four decades of fragmentation of the country's 
society and the competition for the country's massive oil reserves will 
make a consensus around such a creation exceedingly difficult.
    Once the euphoria over the future removal of Qadhafi wears off, the 
hard tasks of state-building within Libya lie ahead. In a political 
landscape where citizen loyalties were deliberately never aggregated at 
the national level, this road ahead will prove unsettling and 
uncertain. It will undoubtedly provide ample opportunities for those 
who want to obstruct that process.
    To avoid this, the country will need substantial expertise that 
will help a post-Qaddafi Libya start to build a new, democratic state, 
to reform and develop its badly functioning economy, and to improve 
local democratic governance through a number of educational, economic, 
and political initiatives. Libya's survival as a unified country will 
not only depend on how its own citizens deal with its longstanding 
fissures but also on the careful planning of outside powers. The United 
States is uniquely situated to help Libyans address exactly those 
multiple, overlapping tasks, and, for the first time, create a 
political entity in Libya that all its citizens can truly subscribe to.

    The Chairman. Thank you very much. Very thoughtful and 
helpful. And I'm going to pick up in a moment on some of the 
questions.
    Let me begin my comments before I ask any questions. I just 
want to--I was just telling Senator Lugar, I tried to call him 
the other night; he was obviously out celebrating. But, I 
wanted to wish him, and I think everybody on the committee 
wants to join in wishing him, many happy returns on his 
birthday that he celebrated just a couple of days ago. So, we 
join in doing that. Ageless. We won't mention numbers. 
[Laughter.]
    Let me just say a word about a political reality. You know, 
I've listened to these debates, now, on this committee for 27 
years; and my friend, here, for longer than me. And there's 
kind of a pattern to them, in a way, exacerbated since, 
frankly, Clinton and Bosnia, where there seems to be sort of an 
automatic--that one President of one party does this, 
everybody's against, there; and if somebody else does that, 
everybody's against, over here. And I'm not sure our foreign 
policy is as well served by that.
    I can guarantee everybody--I guarantee you, that, sure as I 
am sitting here today, that if President Obama had simply 
turned his back on the Arab League and Gulf States' request and 
on the opposition's request, and we sat here, and CNN and 
everybody was consumed with the slaughter in Benghazi, we would 
be hearing how weak the President is, how feckless our policy 
was, and how completely without regard to American values this 
moment was, and the administration was, with respect to Libya. 
I just guarantee you. We already heard some of that about the 
timeframe that it took. And people were warming up, ready to go 
even further, had the Arab League not changed the equation.
    Now, a bunch of us, in talking about this at the outset, 
said, ``We don't do it unilaterally. We can't do it 
unilaterally. It would be inappropriate, for any number of 
reasons,'' and suggested that the predicate had to be the 
United Nations first; Arab League, African Union, GCC, some 
combination thereof. Then, lo and behold, we actually got all 
of them. They all stepped up and said, ``You've got to do 
this.''
    Now, imagine--I just want people to imagine the hue and 
cry, had we done nothing, in the face of all of those pleas. 
Moreover, there are a million and a half guestworker Egyptians 
in Libya who were at significant risk. People seem to be 
forgetting that. And the Egyptians, who we have supported 
openly and are invested in, were significantly concerned about 
what might happen to them, in terms of hostage-taking and/or 
other things that might have followed. Moreover, we would be 
engaged in a massive refugee exculpatory, sort of, who-lost-
Libya debate, combined with, ``How are we going to deal with 
all these refugees, and what's our response going to be?''
    I think it's hard to suggest that, even with a stalemate, 
if that's where we are--and I want to come back to that in a 
minute--that, with a Qadhafi who can't sell his oil, with a 
Qadhafi who has a divided country, with an opposition that is 
now in a position where they know this army cannot move on them 
in their part of the country, you have a very different 
equation, with a battle--a legitimate battle for the hearts and 
minds and future of the country, which we've encouraged in many 
parts of the world, and we would love to see, openly. We'd give 
our eyetooth to have that in Iran tomorrow. So, it seems to me 
that we've got to sort of put this into honest discussion.
    Now, Mr. Vandewalle, you've sort of begun with an 
assumption about Qadhafi's departure. And I want to ask you, is 
that because you believe it is an inevitability or you think 
that's the only working place from which you can start?
    Dr. Vandewalle. Mr. Chairman, I think, in the end, it is an 
inevitability; in part, because--for some of the reasons that 
Mr. Malinowski also spelled out, but I think, increasingly, the 
options for the regime are becoming smaller and smaller as its 
financial resource base diminishes, as eventually we will 
likely see more defections. I do think the defection of Moussa 
Koussa was a very important one, and it certainly will be 
watched among some of the top Libyan policymakers.
    But--so, the bottom line for me is that, overall, I think 
the options for the regime are narrowing very gradually over 
time. And I simply think, even though there is still a good 
amount of support within the western part of the country, I 
simply don't think there is enough momentum to that left to 
really overcome what I see as a kind of--a very steady, but 
slowly growing, support for the rebels out east.
    So, in the end, I think it will be a matter of one power 
block against another power block. And I see the western power 
block, meaning Qadhafi, steadily losing its momentum.
    The Chairman. Mr. Malinowski, do you want to comment on 
that?
    Mr. Malinowski. Well, I agree with that. The one thing that 
we didn't have a few weeks ago was time. We were literally 
hours from seeing Qadhafi, essentially, win, retake Benghazi. 
And then, I think, it would have been game over, in terms of 
building the kind of future in Libya that we would have wanted 
to see.
    Now there is time. And I don't think time is Qadhafi's 
friend. Because with time, again, as you said, his resource 
base will dry up. He has what he has. But, everybody around him 
knows that once that's gone, there will be nothing left. They 
know that he's not going to be able to retake eastern Libya. So 
if you believe in Libya being a unified country again, you know 
that the only way that can happen is if there is a different 
kind of government in Tripoli.
    So, I think with patience that the objective will likely be 
achieved. And we shouldn't lose our nerve. We ought to believe 
in ourselves and believe that the influence that the United 
States and this remarkable international coalition can bring to 
bear will not be insignificant in the end.
    The Chairman. Is there any reason--I ask this of any of 
you--we have frozen $31-$33 billion of Qadhafi's assets that we 
have access to and capacity to freeze. That's a lot of money. 
And that money can, in fact, go to pay for a lot of this 
operation and/or a lot of the rebuild, can it not?
    Mr. Vandewalle.
    Dr. Vandewalle. Indeed, it could. It certainly could. 
Thirty billion dollars would go--an enormous amount. On the 
other hand, we should also not forget that the Sovereign Wealth 
Fund of Libya and the National Reserves of Libya probably total 
about $170 billion, which makes that number almost--not quite 
marginal, but at least diminishes it. And that money is still 
under control of the Qadhafi government.
    The Chairman. Right.
    Dr. Vandewalle. So, it--you know, it--as Mr. Malinowski 
said, you know, he could sit this out for a while. And I think 
we'll have to be patient.
    But, eventually, also, and one of the things I didn't 
stress in response to your initial question, the fact that 
Qadhafi remains in power, in a sense, also occurs because he 
has created around himself this kind of aura, in a sense, of 
invincibility, the fact that he truly is the leader of Libya, 
that nothing really happens without him. And that kind of 
creation of a myth, if you want to, around him has been a very 
powerful mechanism to keep him in power. As his resources, 
again, diminish, as some of the money that is being used from 
that $30 billion, presumably to aid the east and so on, I think 
the stature of Qadhafi, particularly among those that support 
him, would, again, be dramatically undercut in the longrun.
    The Chairman. What percentage did you say, of the total 
revenues of Libya, are oil?
    Dr. Vandewalle. It's about--in terms of current income, 
it's about 95 percent.
    The Chairman. Ninety-five percent is oil.
    Dr. Vandewalle. Yes.
    The Chairman. Senator Lugar.
    Senator Lugar. I'd like to raise the general question of 
when the United States should become involved in the civil war 
of another country. Now, in this specific case, the thought has 
been that we are implementing a response on the basis of 
important humanitarian concerns. But, whatever that 
justification may have been, it came as a result of people 
fighting each other in Libya. And terrible things happen in 
civil wars. It may very well be that, in civil wars that have 
occurred elsewhere in the world, people might have suggested 
intervention at some point to save a lot of lives; or simply to 
terminate the civil war, for example. But, I simply question, 
to begin with, the premise that the United States should become 
involved in a civil war. And I would like comment, by any of 
you, on that general premise.
    Ambassador Haass. I will respond to that, Senator Lugar. 
I'm sympathetic to what you're saying. We can't roll back 
history, and we can't know how things would have turned out, 
had we not done certain things. But, I'm unpersuaded, which 
many people assert, that it was a known fact that a large-scale 
humanitarian catastrophe was imminent. I don't claim to be the 
world's living expert on Libyan society; Professor Vandewalle 
knows a lot more. But when I look at Libya, I haven't seen any 
large-scale massacres
in that country. I don't see the soot of ethnic division, say, 
in a Rwanda that we had between Hutus and Tutsis. I don't see 
anything like that in Libya.
    Qadhafi's approach to the rebels was that they were 
politically opposing him. It was not a tribally based or an 
ethnically based situation; it was a civil war. And people take 
up arms in civil wars, and people who take up the arms kill and 
get killed. And civil wars tend to be, as we know from our own 
country's experience, the most brutal sort of encounters.
    But, before we intervene, we have to be sure humanitarian 
catastrophes on a scale beyond what one would normally expect 
to come from fighting in a civil war are imminent. We also have 
to ask ourselves, Do we have other tools that we think could do 
some good? And I don't think the United States adequately 
explored what we could accomplish through diplomatic means to 
prevent this situation from unfolding. And I don't think we've 
persuaded ourselves that our intervention will necessarily make 
a bad situation better. There's a lot of history that suggests 
intervention in civil wars prolongs them. And we might be 
seeing that here. And, as a result, an awful lot of people 
could be killed, and indeed will be killed, if this civil war 
goes on for months or even longer.
    So, you've got to look at these situations on a case-by-
case basis. We do end up with an inconsistent policy. I don't 
think we can have a one-size-fits-all policy here. But, I'd be 
wary of taking too many lessons from the Libya case--any more, 
Senator, than from the Bosnia case--in setting up a foreign 
policy construct based on it.
    Senator Lugar. Mr. Malinowski, do you have an idea?
    Mr. Malinowski. Well, maybe this is a semantic question, 
but it's not a insignificant semantic question.
    I'm not entirely comfortable with the use of the term 
``civil war'' in this case. To me, a civil war is a struggle 
between two political factions or ethnic factions, maybe 
representing different parts of a country, for political 
control of the center. And I think, superficially, it does look 
that way, because of the phenomenon I described, that the 
protest movement in the west was beaten through brute force, 
and brute force didn't work in the east; and so, you ended up 
with the opposition in control of territory.
    And so, it sort of looks like east versus west. But, this 
was a nationwide rising against Qadhafi--in Tripoli; in 
Zawiyah, as we saw, the city that held out for quite some time, 
where people were brutally put down; in Misrata, which is a 
western city, where people are still holding out. So, to me, it 
doesn't really feel like ``civil war'' is the right 
terminology.
    Bosnia was much more of a civil war. And, as you recall, 
Senator Lugar, those who opposed any humanitarian intervention 
in Bosnia stressed that aspect of it. You know, they argued, 
``This is a complicated civil war between people who have been 
at each other's throats for hundreds and hundreds of years. And 
we'll never be able to resolve it.'' And, in the end, I think a 
lot of us felt--I believe you felt--that it was important, in 
that case, for both humanitarian and strategic reasons, despite 
all of those complexities, to intervene on behalf of a besieged 
civilian population. And it was successful.
    When do you do it? I think Mr. Haass laid out a number of 
very good conditions. And I think I essentially agree with his 
conditions. We disagree on whether those conditions were met in 
the Libya case, or not. I also agree with him that perfect 
consistency is impossible to achieve. At the end of the day, 
where I come down is, you can't do this in every case, even in 
every case where our moral values and our strategic interests 
are implicated. But, just because we can't help everybody, 
everywhere, doesn't mean that, for the sake of consistency, we 
should help nobody, nowhere. This was a case where it was 
possible to do something. And I think the situation we'd be 
talking about right now would be far, far worse, far darker, 
had we not done what we did.
    Senator Lugar. Let me just leap ahead for a moment to the 
fact that we are, apparently, implementing a humanitarian 
response. Now, at the onset, would it not have been appropriate 
for the President to say, ``This is my plan for Libya,'' and 
then provide some detail regarding manner in which our Armed 
Forces would be used and the nature of our long-term 
involvement in the country?
    Essentially, the Iraq situation comes to mind, where, 
clearly, the dictator was overthrown fairly rapidly, but then 
our stated reason for the use of military force shifted from 
the regime's possession of weapons of mass destruction to 
building a model democratic state in the Middle East. And 8 
years later, we have achieved that, I hope. But, a lot of 
people are suggesting that we should not be so fast about 
withdrawing the troops because it may undercut whatever 
progress has been made.
    In other words, it just seems to me that we're still in a 
situation that started with the humanitarian affair, but 
continues, day by day, improvised, without any particular 
congressional approval, or approval of the rest of the Nation, 
except for polls that ask, ``Do you think the President is 
handling the situation in Libya correctly or incorrectly,'' and 
so forth. What is the proper course now for the President, for 
the Congress, and for the country in terms of our foreign 
policy in Libya?
    Ambassador Haass. Let me just say that we are looking at an 
enormous set of needs emanating from Libya. There's actually 
some consensus on this panel, if not on how we got to where we 
are, about the future. You are looking at a country that 
essentially lacks national institutions, has tremendous 
resources, but these resources never really have been put to 
the use of the country.
    You are going to need, whether the country is unified or 
not, whether Qadhafi's there or not, some sort of an 
international physical presence, boots on the ground. Whether 
it's peacekeeping or aggravated peacekeeping, I don't think we 
know. It could be a mixture of the two.
    I predict you are looking at an enormous multiyear effort 
to help this country essentially become a functioning country. 
Otherwise, I think we are looking at the potential that Libya 
begins to take on shades of Yemen, a country with significant 
ungoverned spaces, ongoing fighting, a strategic nightmare for 
ourselves, as well as, potentially, a humanitarian and 
political and economic nightmare for the people there. I don't 
think the world has begun to wrap itself around that.
    But you have a resolution, as you know, in 1973, that 
specifically precludes an international force. People have not 
begun a serious conversation about who's going to maintain 
order in the country, much less, if and when order is secured, 
how are we going to undertake the process of rebuilding.
    There are enormous Libyan assets, but, in Iraq, we saw that
the fact that you have national assets doesn't necessarily 
automatically translate into a neat funding mechanism for 
international activities.
    So, my hunch is we haven't really begun, what, in military 
jargon, would be the ``phase 4'' part of this. And I think we 
are looking at a multiyear effort that's going to require a 
large international role. People have not begun to plan for it, 
as I can tell, and have not begun to politically prepare their 
own publics for it. NATO hasn't in any way transitioned to 
that; the Arab League hasn't. So, my hunch is, the debate is 
not even close to being where it's going to need to be, 
Senator.
    Senator Lugar. Thank you, Mr. Chairman.
    The Chairman. Just before I recognize Senator Shaheen, I 
might just say quickly that I think that's a very, very good 
point--several points--with respect to what's needed, et 
cetera. I would point out that Secretary Rumsfeld promised us 
that the Iraqi oil was going to pay for the war. And there 
was--very little effort has been made to, in fact, translate 
that into reality.
    I see no reason why, with respect to Libya, if you had $170 
billion in reserves and $30 billion in seized assets and a 
continuing revenue stream of some 95 percent of its country's 
revenue--this is an oil-rich country, and the notion that they 
could not take some designated component of that, as a 
prerequisite to any of these developmental efforts, is beyond 
my comprehension. It should be insisted on and absolutely 
guaranteed.
    So, I think there's a way forward. And we should welcome 
the opportunity, with a readily paid-for capacity, to, in fact, 
help another country on the African Continent develop the kinds 
of institutions and capacity that will help us all, I think, in 
the longrun.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you, to all of our panelists, for being here.
    I have to start with Dr. Vandewalle, since he's a Dartmouth 
professor and I always like to recognize people from my home 
State of New Hampshire. So, thank you very much. It's great to 
have you here.
    Dr. Vandewalle. My pleasure.
    Senator Shaheen. One of the things you talked about in your 
testimony is that there is the potential for history to repeat 
itself. And you pointed out that Libya was really created sort 
of artificially, back in 1951, when the provinces were pushed 
together. Given that, given the obvious continued separateness 
of the east and west, would it be better for us not to try and 
maintain a unified Libya?
    Dr. Vandewalle. There are several people who make exactly 
that--you know, put forward exactly that argument, that, in a 
sense, you know, Libya was pushed together for, essentially, 
strategic purposes in 1951, and that certainly the two 
provinces, from an economic point of view, could both survive 
on their own. Both have their own oil fields. The eastern 
province would be relatively richer off than the western 
province would be. But, it certainly would be possible, from an 
economic point of view.
    The big question, of course, is whether or not that is 
still acceptable--a kind of a separation down the road is still 
acceptable to Libyans, themselves. And despite the kind of weak 
national idea that I've depicted in my presentation to this 
committee this morning, my argument would be that I don't think 
Libyans would want to see their country divided, that they 
truly want to keep it together, despite the differences that 
exist, and would really like to move forward again as a unified 
country that could share the oil, that could share the 
infrastructure for the oilfields, and so on.
    So, in a sense, I think we shouldn't be supporting any kind 
of solution--and, in a sense, we are, by leaning one way or the 
other in this international coalition, but we shouldn't be 
supporting any movement forward that would lead to a separation 
of Libya.
    And hence, also, while I was a little skeptical of the 
Interim Council that we've--what they have produced so far, 
yes, there is all kinds of very nice descriptions of a unified 
Libya, and so on, in the document--that two-page document that 
they have produced, but I don't sense any kind of real thought 
having been given yet to what that really means on the ground. 
And one of the things that it's going to mean is somehow you've 
got to come up with a formula to divide oil proceeds in Libya. 
And that needs to be more or less shared equally. Indeed, one 
of the reasons that led to this upheaval was the fact that it 
was not shared equally, that the western province had profited 
quite extraordinarily, at the expense of the eastern province.
    So, as long as that is not there, I think we should be a 
little bit skeptical of the transitional council. But, in the 
end, I think, if it proves that it truly wants a national union 
again of Libya, and that it can bring in partners from the west 
of the country, I think it would certainly be the preferred 
solution for Libyans, themselves, to keep the country unified.
    Senator Shaheen. Thank you. You say that there are only 
certain members of the Interim Council that we really have 
identified and know who they are. Mr. Malinowski testified that 
we do, in fact, know a lot more about the opposition than 
popular media reports would suggest. One of the concerns that's 
been raised about--by a number of our military leaders has been 
potential ties to terrorist groups.
    Can you all talk about who these opposition leaders are and 
what we do really know about them, and whether they do have--or 
we believe they have ties to terrorist organizations?
    And I'll ask you to go first, and then maybe----
    Dr. Vandewalle. Sure.
    Senator Shaheen [continuing]. Mr. Malinowski and Dr. Haass.
    Dr. Vandewalle. Senator, we know relatively little about 
the Council. We know there are 31 members on it, according to 
their own self-description. Of those 31, we roughly know 12, 
including a couple of military commanders, at this particular 
point in time.
    I had a conversation with a contact person in London, where 
I pressed them--and I should say, as backup, first of all, that 
I've watched Libya on and off now for 25 years. And, of the 
people that were on the National Council, there were probably 
two or three that I recognized, that were truly recognizable, 
as a national--as national figures. When I pressed the person 
in London on what the committee--the rest of the committee 
looks like--and a point, of course, they have been making is 
that, ``We can't tell you the rest of the committee, because 
they may be in danger,'' understandably, if they would live in 
the western part of the country. But, even when I pressed them 
on it, I simply couldn't get a very good answer.
    So, my hunch is that we know quite a bit less than we would 
want to know. And I think, particularly if this Interim Council 
moves forward and becomes a privileged partner, which already 
it is, because France and some other countries have recognized 
it, that we really should push harder not only on their 
political program, but also to know who, precisely, is on the 
Council and whether or not any of those personalities have, in 
the past, had any dealings with more radical Islamic groups, 
for example, that have existed in North Africa, and were 
eviscerated, eradicated in Libya in the mid-1990s.
    Senator Shaheen. Mr. Malinowski.
    Mr. Malinowski. Well, when we say ``we know'' or ``we don't 
know,'' I always want to know who the ``we'' is.
    Senator Shaheen. I think you testified that ``we''----
    Mr. Malinowski. We----
    Senator Shaheen [continuing]. Know more than----
    Mr. Malinowski. There is this phenomenon in Washington, 
that many of us who've worked in government have seen, which 
I've always found a bit amusing, that we don't acknowledge that 
something is known until it's come to us in a folder marked 
``classified'' from the agency with three letters in it. And, 
obviously, our intelligence agencies weren't hanging out with 
human rights activists in Benghazi for the last few years. And 
that's no fault of theirs. It's not their job to know who those 
people are. Our military obviously had no contacts with those 
people. And those people who follow foreign policy for a living 
weren't thinking very hard about the local politics of cities 
in eastern Libya for the last few years. So, it's sort of 
understandable that most of those folks are going to say, ``We 
don't know who they are.'' Right? But, that doesn't mean it's 
not knowable and that there aren't people who do know.
    There are 31 members of the Council. We, Human Rights 
Watch, don't know each and every single one of them. We did 
know, before this all started, virtually all of the leading 
members of the Council. We had worked with some of them when 
they were, as I mentioned, human rights activists--actually, 
very good people in Benghazi. If we could pick the future 
leaders of Libya, those are the kinds of people we would likely 
pick.
    We have met, several times, with the Qadhafi government 
officials who went over to the opposition, and had pretty 
strong impressions of those individuals, as well. And, since 
then, we have been in Benghazi, on the ground, speaking every 
day to members of the Council about their day-to-day work, 
about some of the mistakes that they have made--and they have 
made considerable mistakes--about their vision for the future 
of the country. And so, we have gotten to know a substantial 
number of the members of the Council.
    On the al-Qaeda issue, absolutely, there has been al-Qaeda 
recruitment in eastern Libya over the years. There is also a 
domestic group, called the Libyan Islamic Fighting Group, which 
was set up to fight Qadhafi. And there's controversy about 
whether it had ties to al-Qaeda, whether they were broken or 
not, which is complicated.
    But, just because some of those people existed in eastern 
Libya, and now there is an opposition in eastern Libya, doesn't 
mean that the two are one and the same. Certainly, in our 
experience, the members of the Council are generally people 
committed to a secular democratic vision. They're mostly 
lawyers, professionals, human rights activists, former 
government officials.
    The rank-and-file fighters--that's everyone--everyone in 
eastern Libya. It's democrats, Islamists, Monarchists, men, 
women, bakers, butchers. It's everyone. And yes, of the small 
number of people who may have gone to Iraq and fight, those 
people are in the mix, as well.
    But, imagine if the only thing we cared about here was the 
fight against terrorism and al-Qaeda; imagine what would have 
happened, had there been a bloodbath and a humanitarian 
catastrophe in the east, and all of these people felt, ``We 
just got betrayed by the Americans and the Europeans and the 
U.N. They didn't stand up for us.'' They're living in refugee 
camps, they're wandering around the Middle East. That's the 
nightmare scenario. And now we've got people who are developing 
a new political identity, which is absolutely not fully formed 
yet. And, yes, just because they say they're for democracy 
doesn't mean they will be in 10 years. But, at least that's the 
political identify that they are trying to form themselves 
around. And I think that's a much better outcome.
    Senator Shaheen. Thank you.
    My time is up.
    Dr. Haass, I would really like to hear your answer, so I'll 
come back to you on the next round.
    The Chairman. Senator Corker.
    Senator Corker. Mr. Chairman, thanks for having this 
hearing.
    And I do want to say that I heard your comments about 
people taking positions on this conflict based on who's leading 
it. And, while I enjoy working with you and certainly enjoyed 
working with you on the START Treaty, which most people on my 
side of the aisle did not support, I find those comments 
offensive.
    And, while they may reflect actions you've taken over the 
last 27 years, where you've supported efforts that a Democrat 
was involved in, and didn't support actions that a Republican 
was involved in, I think there are legitimate concerns that 
people on both sides of the aisle have. Matter of fact, there 
are a lot of Republicans that are joining with you on a 
resolution, I think. So, I just want to say that, for what it's 
worth, I find that very offensive.
    Personally, I've not made comments critical of the 
President. But, I do have concerns about mission creep. And I 
think those are legitimate concerns. I associate myself with 
much of what Mr. Haass has said.
    What I find duplicative, recycling, is the ease with which 
we come into these conflicts and think that we can pay for them 
with resources that exist in the country, like Iraq, which is 
ridiculous. I think the same thing may well turn out, here.
    And the bigger issue to me is really moving ahead. I--you 
know, what's happened over the last several weeks and months 
has happened. I don't really care about litigating those. What 
I do care about is making sure that, from here on, that we 
don't involve ourselves in mission creep. I agree with the 
statement, ``We are where we are.''
    And so, I'd like to ask to each of the panelists--and I 
thank each of you for your testimony; I think you've done so 
with strong feelings about where we are--Do we need to have 
American military boots on the ground fighting Qadhafi forces? 
I'd just like yes, no, or short answers from each of you.
    Mr. Malinowski. No.
    Senator Corker. OK.
    Ambassador Haass. We don't need to, and we shouldn't. But 
there will be a need for international boots on the ground as 
we transition in Libya.
    Senator Corker. All right.
    Dr. Vandewalle. I think I agree with Richard Haass. We may 
not need American boots on the ground, but we will certainly 
probably need some kind of boots on the ground, internationally 
speaking, to, in the end, make the final push to remove 
Qadhafi.
    Senator Corker. So--but, you would all say we don't need 
American boots on the ground to fight Qadhafi forces.
    Ambassador Haass. Let me just say, I----
    Senator Corker. Yes.
    Ambassador Haass [continuing]. Just to be clear, I do not 
think the purpose of international forces in Libya should be to 
join the civil war against Qadhafi.
    Senator Corker. Let me ask you, do you----
    Ambassador Haass. Just to be very clear, that I do not 
think there will be any chance of getting an international 
force to do that. And I don't think it would be wise, if you 
could.
    Mr. Malinowski. I agree with that.
    Senator Corker. Should we have our CIA on the ground, 
involved in covert operations to try to assassinate Qadhafi and 
make it easier, so there's no bloodshed?
    Dr. Vandewalle. I think, particularly from the viewpoint of 
Libyans, that would probably not be an optimal solution for 
them. Despite the opposition that exists to Qadhafi, and so on, 
there is still, particularly in the western part of the 
country, a good deal of support for him. And so, if we come in 
and support those kinds of initiatives, I think sooner or later 
that would probably come back to haunt us.
    Senator Corker. And comments from any of the other two?
    Ambassador Haass. Well, I'm not real enthusiastic about 
assassination as a tool of American foreign policy. And also--
and it gets back to Senator Shaheen's line of questioning--we 
need to be confident that we have something better to put in 
its place. However flawed this regime is--and God knows it's 
flawed--in my experience, 31 people can't run anything. So, the 
idea that you have a serious alternative to Qadhafi in play 
somewhere in eastern Libya or in London is a nonstarter. It 
just doesn't exist. Revolutions go through phases. If Qadhafi 
were to disappear, there would be a falling out, there would be 
a splintering; often the immediate successors are not the 
ultimate ones. We have to be careful----
    Senator Corker. OK.
    Ambassador Haass [continuing]. About putting so much of our 
focus on regime change, as if that were the solution. Because I 
don't think that is the solution. If it were to happen, it has 
to be a part of something much larger.
    Senator Corker. And I can't imagine a human rights person 
would want to see that happen. [Laughter.]
    Mr. Malinowski. I don't even know what to say.
    Senator Corker. OK. So, let me just move on.
    I am very concerned about our mission creep. And, 
militarily, I think we perform those functions that are unique 
if we are going to be involved. I have the same exact concerns 
that Mr. Haass expressed. And I've expressed those from the 
very beginning. I am glad that, if something like this is going 
happen, we have a coalition. I'm glad that others are involved. 
And I think others can take the lead on those types of things 
we just talked about.
    So, then we move to nation-building. I mean, I--you know, I 
don't think--my experiences are much shorter--4 years--than the 
chairman's. So, you know, we're involved in the most major 
nation-building effort in modern times, in Afghanistan, and it 
began, by the way, in a very narrow way. And I'm very concerned 
that's where we're headed.
    Each of you have talked about building democratic 
institutions, courts, justice systems, all of those kinds of 
things. On what scale are you all talking about our involvement 
being, in that regard? Because one thing leads to another. 
You've got to have economic growth, so then all of a sudden 
we're building all kinds of highways. We're doing all kinds of 
things in countries. I'd love to hear what your thoughts are, 
as it relates to U.S. involvement in that regard.
    Mr. Malinowski. I don't think it would be anything of the 
scale or of the nature of what we're experiencing in Iraq and 
Afghanistan; very different kinds of conflicts.
    You know, first of all, this is not a communal conflict in 
which people of one ethnic group are at the throats of people 
of another ethnic group, which, you know, would require, as in 
the former Yugoslavia, large numbers of peacekeeping troops on 
the ground just to keep people from killing each other. In 
Ivory Coast, you have that kind of conflict right now, 
something we're all very concerned about, where there is going 
to need to be a U.N. presence on the ground to keep communities 
apart for some time. That's not the case in Libya. Nor is it an 
impoverished government, as we've discussed; there are tens of 
billions of dollars available for infrastructure development 
that already belong to the Government of Libya.
    I think it's more along the lines of what we helped to do 
in some of the eastern European countries after the fall of the 
Berlin Wall, which involved training and advice, provision of 
expertise in how to develop a constitutional system, how to 
deal with some of the questions Mr. Vandewalle raised about how 
to manage oil revenues in a way that's transparent, 
accountable, that benefits different regions of the country in 
an equitable way.
    That's not the kind of massive resource-draining commitment 
that we find ourselves in, in Iraq and Afghanistan. It would be 
still a commitment, I think, worth making.
    Senator Corker. So, would it be a commitment--I mean, we--
we're involved in many of the former Soviet countries right 
now, in helping them with democracy and transparency and 
anticorruption efforts. So, you're talking about something on 
the scale of Libya just being another one of those type 
countries? I find that hard to believe, but is that what you're 
talking about?
    Ambassador Haass. I would answer it this way. I don't think 
the U.S. role has to be particularly in the lead, here. The 
Europeans have a much larger stake, for reasons of geography 
and history. As Senator Kerry said, the idea of a pay-as-you-go 
formula ought to be the going-in assumption. We don't have to 
turn the place into Singapore. I don't think that's necessary. 
I wouldn't say our goal is necessarily to produce, any time 
soon, democratic institutions. I think it is functioning 
institutions that you want. You want to prevent Libya from 
being a failed state. And I think it's a fundamentally 
different challenge if you're trying to do this amidst 
continued fighting or if you have, essentially, a secure 
environment. But, I would think that the U.S. role in this 
would be minimal, in terms of people involved, and certainly in 
terms of our resources. That should be our going-in position. 
There are so many other places in the world where there's no 
substitute for American leadership, where we have to carry a 
disproportionate burden. I see absolutely no reason why the 
United States should be taking a central role in the future of 
Libya.
    Senator Corker. Mr. Chairman, I know my time is up. I think 
that last comment is one that expresses my sentiment. I just 
don't see where there's anything about Libya that causes us to 
uniquely need to take the lead. I think there are much greater 
reasons for European allies and others to do that. And we have 
a lot on our plate. It's evident that the President, even, is 
not interested in additional activities. And I hope we'll do 
everything we can to move others into the lead, as it relates 
to this effort.
    And again, I thank you for having this hearing today, and I 
hope we'll have others.
    There was a vote, yesterday on the floor, regarding the 
constitutionality of this effort. And I voted against it, as I 
think 90 other Senators did. Separate and apart from what's 
actually happened here, because I do think it makes it 
partisan, I think it would be good for us to have some 
hearings, down the road, just to talk about the War Powers Act. 
Not to try to pin it on this effort and make it into something 
that might be perceived as partisan. But, when you have a war 
of choice, like this, that we're involved in, it does raise--
especially when there's not an imminent threat--there are 
reasonable discussions that should occur. And I think it would 
be helpful to committee to have those hearings. Again, not to 
focus it on this effort, but just to help us be more 
consistent--which was one of the things I think many of the 
witnesses have talked about--be more consistent in our future 
endeavors.
    And I thank you.
    The Chairman. Well, thank you, Senator Corker. I think that 
point is an important one. And I would agree with you 
completely. I have no notion in my head, swirling around, that 
I envisioned some huge United States post-effort here. I think 
that we can be part of it and helpful, maybe help shape and 
frame. But, I would clearly envision that to be far more in a 
zone of interest and activity of others who are engaged in this 
effort now, and who are much more proximate, and frankly, have 
a longer history of engagement with Libya. And I think they're 
quite anxious, actually. I just met with folks in both Great 
Britain and France, and I think they're prepared to assume that 
kind of leadership role.
    So, I think that we can heed your words with respect to 
your and other people's concerns about the mission creep, here. 
I think a lot of us are very, very determined not to, under any 
circumstances, see that evolution.
    Let me also make a comment, if I can, about your initial 
comments on what I'd said earlier. I always listen carefully to 
a Senator, who's my friend and who indeed worked as diligently 
and as bipartisanly as you could--as nonpartisanly--on the 
START Treaty; and Senator Lugar, likewise. And, on reflection, 
I absolutely understand how you would--could take my comments. 
And they were probably just not crafted as sharply as they 
should have been. And I, in no way, intended to assert that you 
or someone else in the Senate--I really had in mind, to be 
honest with you, some very notable, highly identifiable, and 
well-known media outlets and personalities who are automatic on 
these things. And I, by no means, intended to suggest that 
Senators, you know, are engaging in that.
    But, I do think--and I stand by those words--I think there 
are those out there who are just instantaneous in these, 
whether it's both of our national committees. But, the politics 
of these things often just kind of get out of control. And I 
think we're all better served if we can, you know, keep that 
away.
    But, to whatever degree that that was interpretable in a 
way that, you know, suggested otherwise, I certainly don't want 
you to have that belief. And I don't intend that.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    I appreciate my friend Senator Corker's concerns. I wish 
some of those voices--he wasn't here at the time--had been 
raised about Iraq, where we have lost an enormous amount of 
United States resources and lives, for a mission that I didn't 
think was in our national interests.
    Foreign Minister Moussa Koussa is reportedly the expert on 
the Qadhafi regime. But, his close affiliation with Qadhafi, at 
least to me, implicates him in the terror perpetuated and 
supported by that regime.
    The Chairman. Senator Menendez, can I interrupt you just 
for one second? I apologize.
    In 5 minutes, both Senator Lugar and I have to go meet with 
President Perez. Could we ask you to close out the hearing, if 
that's possible, if any other colleagues come----
    Senator Menendez. I have to leave after this, but will 
leave it to Senator Shaheen.
    The Chairman. I think she has another round.
    If I could thank all of the witnesses very, very much for 
coming. And I think it's been helpful, and it's helped to 
actually shed some light on a number of different options as we 
go forward. So, we're very appreciative.
    I apologize for interrupting.
    Senator Menendez [presiding]. As head of Libya's 
intelligence service, he is reportedly responsible, or at least 
knowledgeable, about the kidnappings, torture, and murders 
committed by the regime, including the bombing of Pan Am 103. 
This is a man who, in 1980, was expelled from his position as 
Libya's envoy in London for calling, in a newspaper interview, 
for the killing of dissidents, telling the Times that ``the 
revolutionary committees have decided last night to kill two 
more people in the United Kingdom, and I approve of this.''
    So, in my opinion, this is a man that should be charged 
with crimes against humanity. Instead, the U.S. Treasury has 
lifted the freeze on Koussa's assets, hoping the move will 
encourage other Libyan officials to split from Qadhafi.
    So, is the intelligence that we seek to collect from Koussa 
so great, or is the example of having others defect so great, 
that we should overlook his personal history, his crimes, and 
the deaths of Pan Am 103 that killed 270 people, including 34 
New Jerseyans? Is what we seek to gain from him worth the price 
that we'll have to pay?
    Mr. Malinowski. I feel strongly that he should not get 
immunity, and no one should get immunity, for potential 
prosecution for those kinds of crimes. And I don't think it's 
necessary to stimulate their defection. In this case, actually, 
it was clear he was not going to get immunity, and he did 
defect. So, there you have it.
    Dr. Vandewalle. I mean, Moussa Koussa was certainly, as 
I've describe him, the bloodhound of the regime. And his 
defection came, of course, at the time when I think he realized 
that the tide was perhaps turning, in Tripoli, against him. And 
certainly, he was very closely implicated, with all kinds of 
unsavory activities of the regime.
    Much like Mr. Malinowski, I don't--I thought it was 
regretful, in a sense, that his assets were unfrozen. I don't 
think that that in any way will sway people in Tripoli. And, 
frankly, I also don't think that, in a sense, that his 
defection at this particular point in time is that important 
anymore. I think people are starting to see what is happening, 
the close advisors around Qadhafi. And certainly he should not 
be immune from prosecution, which, as I understand, he is not 
yet. The International Criminal Court is thinking of indicting 
him. So, his assets may be his own again, but certainly he is 
not immune from prosecution yet.
    Senator Menendez. Dr. Haass, does it make sense to unfreeze 
his assets? What do we gain from that?
    Ambassador Haass. You're asking me to express an opinion 
about what's essentially to me, more a matter of tactics than 
anything and of tradeoffs. I just don't know how valuable it 
would be to get his cooperation on certain subjects. Or whether 
the example of him would be worth, if you will, whatever you'd 
get for unfreezing certain assets. That's a level of tactics.
    Senator Menendez. Well, I think of it a little differently. 
I don't think of it simply as a tactic. I think it is to some 
degree, a policy. Will your policy be one of unfreezing the 
assets of those who may have had significantly violate human 
rights, who may have been in the midst of killing people and 
ordering the execution of terrorist acts? I don't understand 
the standard that we set. To me, it's more than a tactic. It 
sends a message that even if you have committed crimes they may 
be excused. I'm not sure that that's the message we want to 
send.
    Ambassador Haass. I expect there are some parallels here to 
the criminal justice system. I don't have background in that. 
But, you've always got to ask yourself what sort of tradeoffs 
you want to make, and whether it's worth it. And you're right 
to raise questions of principle and morality. But if you knew, 
however, that getting the cooperation of a certain individual, 
even though he had done certain heinous things in the past, 
could save all sorts of lives in the future, that might be a 
consideration you would have to make.
    And all I'm saying is, sitting here today, I'm not in a 
position to make these sorts of judgments, Senator.
    Senator Menendez. Yes. I appreciate that. The point is that 
he already defected. So, if anything, he's got to be worried 
about prosecution. Unfreezing his assets doesn't seem to me a 
tactic or a policy that we want to pursue.
    Let me ask you this. You know, Qadhafi clearly trained 
terrorists in North Africa. And his reign of terror extended 
well beyond his own national and regional borders. This is a 
man who referred, in 1985, to the slaughter of innocent 
travelers that included an 11-year-old American child as a 
``noble act.'' Is there any question, if our diplomatic and 
other efforts were to fail in accomplishing Qadhafi's 
resignation, that he would, if in power, continue to support 
terrorism or move in that direction, after everything he's 
done?
    Dr. Vandewalle. Senator, I think, in light of both the 
history of what we know of the man and in light of what the 
alternatives would be left to him, I would think that the kind 
of behavior we've seen in the past, involvement in terrorism 
and so on, would be one of the only ways left for him at that 
particular point in time. And hence, why I've always argued 
very much that dividing up Libya and leaving part of the 
country under his control would be a major disaster for the 
country and for the international community.
    Senator Menendez. Any other opinions on that? No. Thank you 
very much.
    Senator Shaheen [presiding]. Thank you.
    I wanted to go back to Dr. Haass and ask you if you would 
respond to my question of earlier: Who are the opposition 
leaders? And what do we know about them? And how concerned are 
we about potential ties to terrorist organizations?
    Ambassador Haass. Senator, the only way I know to answer 
that question is that you can't know who are going to be the 
potential successors. We could know each one of these 31 people 
well, we could have roomed with all of them in college. We 
don't know what they would do if they were to come to power. We 
can't assume that all 31 will come to share power equally. 
Indeed, the one thing we can assume is, they will not. And, 
whether it's the Russian Revolution, the Iranian Revolution, or 
virtually any other revolution we can think of, people who 
initially come into power, when the ancien regime is ousted, 
invariably, themselves, are ousted. In civil wars, the people 
who come to the fore are not normally the Jeffersonians, 
they're often the guys with guns.
    So, I think we can persuade ourselves of almost anything 
about what a successor government would be in Libya. And we can 
sit here and say it would be benign, or we could say it would 
be terribly malign, or somewhere in between. I don't think we 
know. And I don't think we can base our policy on that.
    That's true not just of Libya. That's true of virtually all 
the situations right now in the Middle East. We don't know what 
Egypt's complexion is going to be a decade hence. If Assad were 
to disappear tomorrow in Syria, we don't know what sort of 
political leadership would take its place in Damascus and what 
its foreign policy would be toward Israel or anybody else.
    So, we have to approach all these situations with a degree 
of humility. And we almost end up in the land of Don Rumsfeld, 
talking about unknowns. In virtually every one of these cases, 
the succession issue is, to a large extent, beyond our power to 
control and, in some cases, even to anticipate.
    Senator Shaheen. Also, as you all know, there's quite a 
debate about arming the opposition forces. So, first of all, I 
guess I would ask you, Do you think that it would be legal to 
arm the rebels? And second, should we do that?
    Ambassador Haass. You can make it legal through a finding. 
So, that, to me, is not the real issue. The bigger issue----
    Senator Shaheen. Right.
    Ambassador Haass [continuing]. Is whether you ought to do 
it. I would say, no, for two reasons. One is the one, 
essentially, I've just mentioned. I'm nervous about empowering 
people whose agendas I'm not confident of. But, second, 
Afghanistan is something of a warning here, where we arm people 
in one geopolitical context, only to find that, when the 
context changed, the balance of power among those who we armed 
changed, and the purposes to which they used the arms was 
suddenly no longer in our interest.
    Once you provide arms, you essentially forfeit control. We 
have to understand that. Now, we may decide that's necessary. I 
don't think it is in this case. And I would strongly argue 
against going down that path.
    Senator Shaheen. I'm going to ask each of you to respond. 
But, could you also talk about it in the context of our allies 
and whether we think they share that view? Our other allies in 
this endeavor.
    Mr. Malinowski. On arming the rebels.
    Senator Shaheen. Right.
    Mr. Malinowski. Yes.
    Senator Shaheen. I mean, there has been some----
    Mr. Malinowski. I think largely, yes. There may be some 
exceptions to that rule. Largely, yes.
    On the question of whether it's the right thing to do or 
not, I want to stay neutral on that. I can share some of our 
observations from----
    Senator Shaheen. Good.
    Mr. Malinowski [continuing]. From the field.
    One of them is, is that the rebels have plenty of arms. On 
the opening days of the conflict, one of our folks stumbled 
upon a massive complex of warehouses stuffed to the brim with 
all kinds of weapons, including antiaircraft and antitank 
weapons that, in principle, would have been quite useful to the 
rebels. They weren't using them, because they didn't know how 
to use them.
    Senator Shaheen. Right.
    Mr. Malinowski. So, were that decision to be made, I would 
say that simply depositing more boxes of guns and ammo wouldn't 
add very much to the equation, unless the country providing the 
arms and ammo were also willing to engage in training, which is 
a----
    Senator Shaheen. Right. And I assume----
    Mr. Malinowski. Which is a more difficult and----
    Senator Shaheen [continuing]. That that's implicit in 
that----
    Mr. Malinowski. Yes.
    Senator Shaheen [continuing]. In that question. That----
    Mr. Malinowski. So, that would be one caution. And I think 
the more immediate need, and I mean, like, yesterday--is 
helping the rebels secure the weapons stocks that they have. 
There are whole bunch of MANPADS, for example, the shoulder-
fired missiles, that actually we discovered in this warehouse. 
Most of them are not there anymore. In the back and forth of 
the fighting around Ajdabiyah, somebody took them. The rebels 
have told us that they would welcome assistance in securing 
these weapons stocks.
    I know the State Department is interested in doing that. 
There have been constraints about being able to send people to 
Benghazi to actually begin to work on that. That's, I think, 
the most urgent thing. And I think it would be helpful for you 
all to reinforce that, for all kinds of reasons.
    Dr. Vandewalle. Senator, I think--much like my two 
colleagues--I think I would be quite skeptical of arming the 
rebels beyond what they have already; in part because, as Mr. 
Haass said, I think there is a unknown quality yet to the 
provisional government, if you want to call it that, the 
Interim Council, that we simply don't know yet how all of this 
will shake out.
    I would also be very, very worried about what Mr. 
Malinowski just mentioned, and that is a kind of leakage that 
could happen with these weapons, they eventually end up--
particularly in sub-Saharan African countries, where there's 
lots of links with Libya.
    But, above all, I would be very skeptical of arming the 
rebels, in light of the enormous fissures and divisions that 
you have inside of Libya that could then be used in any kind of 
post-settlement period to really impose the vision of one group 
or another over the others. I think Libya already will face 
enough difficulties without having to worry about certain 
groups having access to weapons.
    Ambassador Haass. Can I just add one thing on that?
    Senator Shaheen. Sure.
    Ambassador Haass. History, again, suggests that if and when 
the rebels succeed in their initial goal, which is to get rid 
of Qadhafi, then that glue disappears. And we have to then 
assume that arms we provide for that purpose will be used for 
the purpose of the power struggle. We will be fueling the 
subsequent civil war, not between the rebels and the 
government, but between and among the rebels. And so, if we are 
going to go down that path--which, again, I don't think we 
should do--we should do it with our eyes open, knowing that the 
arms do not disappear the day the goal for which they were 
provided is achieved.
    Senator Shaheen. Thank you.
    And I just have a final question for Mr. Malinowski.
    Could you comment on the situation with refugees right now 
in the country, and whether there is a need for more 
humanitarian workers, or what their situation is?
    Mr. Malinowski. There is still a trickle of refugees coming 
out, both on the Tunisian side--more on the Tunisian side now 
than on the Egyptian side. We averted what would have been, I 
think, a major outflow on the Egyptian side.
    The Tunisian Government, as far as I've seen, has really 
risen to the occasion in a very inspiring way. There's a lot of 
assistance being provided to folks on that side of the border. 
I know the State Department has been very engaged in that; 
UNHCR is present. So, I'm not an expert on this, but my sense 
is that the numbers are not overwhelming right now and there is 
a pretty good humanitarian response that's been mobilized.
    Senator Shaheen. OK.
    Well, thank you all very much. We appreciate your being 
here.
    And I will close the hearing at this time.
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
